<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                         WEDNESDAY, MAY 3, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Collins, Murkowski, 
Blunt, Daines, Moran, Reed, Tester, Udall, and Schatz.

                  DEPARTMENT OF DEFENSE

             Defense Innovation and Research

STATEMENT OF HON. ROBERT O. WORK, DEPUTY SECRETARY OF 
            DEFENSE


               opening statement of senator thad cochran


    Senator Cochran. The committee will please come to order.
    Today we are pleased to welcome to our committee for a 
hearing on the national Defense's Innovation and Research 
funding. We are pleased to welcome Mr. Robert Work, Deputy 
Secretary of Defense; Dr. Will Roper, Director Strategic 
Capabilities Office; and Dr. Steve Walker, Acting Director of 
the Defense Advanced Research Projects Agency known as DARPA.
    The Department of Defense has led technology innovation in 
many areas. Today we will look at these examples such as 
swarming mini drones, high performance computers, hypersonic 
weapons, and the development of the world's first cyber hacking 
robot.
    We look forward to your testimony, and commend you for your 
efforts to strengthen and expand innovation and research so 
that our Nation is well positioned for emerging threats to our 
security.
    Your statements will be printed in the record.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Good morning, the subcommittee will please come to order. Today we 
will receive testimony on Defense Innovation and Research.
    We are pleased to welcome Mr. Robert Work, Deputy Secretary of 
Defense; Dr. Will Roper, Director Strategic Capabilities Office; and 
Dr. Steve Walker, Acting Director of Defense Advanced Research Projects 
Agency (DARPA).
    The Department has recently led technology innovation in many 
areas, such as swarming mini-drones, high performance computers, 
hypersonic weapons, and the development of the world's first cyber 
hacking robot.
    We look forward to your testimony, and commend you for your efforts 
to strengthen and expand innovation and research so that our Nation is 
well-positioned for emerging threats to our security.

    Senator Cochran. I now will turn to the distinguished 
Senator from Montana, Mr. Tester, for his opening remarks.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Well, thank you, Chairman Cochran.
    I want to thank all of you for being here today. I 
appreciate your service and your leadership of the Department 
of Defense, and I look forward to working with you, and hearing 
your testimony today.
    When it comes to Federal funding priorities, I believe few 
things are as important as innovation and research. It is 
critical for Congress to continue to make strong research 
investments across the board, and that means investing in 
cancer research at NIH (National Institutes of Health), and 
agricultural research at USDA (United States Department of 
Agriculture).
    I am concerned with the President's budget. At least 
initially, the fiscal year 2018 budget threatens some of those 
innovations and research opportunities that I believe are vital 
to America's success.
    I am pleased to see that research remains a priority to the 
Department of Defense. Our brave men and women in uniform are 
the best of the best, and deserve state of the art equipment 
and training. This requires research, and I thank you for your 
commitment to keeping this country safe.
    Robust defense research funding ensures that we provide the 
brave men and women serving our Nation with the best possible 
tools to accomplish their mission, while keeping them safe in 
the process.
    America is facing many difficult national security 
challenges right now, and our servicemen and women are spread 
throughout the world making tremendous sacrifices. In this 
committee, we must do our best to make sure that our 
servicemembers continue to have access to the world's most 
sophisticated and advanced technology.
    So, how do we do that? One answer is to do a better job 
taking advantage of the incredible innovations happening in our 
Nation's small businesses. Entrepreneurs and small businesses 
are often on the forefront of technology. They bring fresh 
ideas, and nimble operations, and cutting edge innovations to 
the table.
    It is true in my home State of Montana. We have a company 
called Adelos. It has licensed and developed an R.O.D. Navy 
technology in a state of the art perimeter security system. 
Adelos can lay fiber in a sensitive location and then tell 
exactly what you have. It can tell the difference between an 
aircraft, a vehicle, or a mule deer.
    We have another company called SiteOne. SiteOne is 
developing a new non-opioid based painkiller that could have 
huge positive impacts on how wounded servicemembers are treated 
in the field.
    Instead of providing traditional opioid-based drugs like 
morphine, imagine a painkiller that did not make the recipient 
woozy and did not lead to long term addiction.
    Another company, S2 Corporation is one of the world's 
leading spectrum analysis firms. They can detect spectrum usage 
that nobody else can see. Understanding spectrum is critical in 
this era of warfare.
    There are countless more small businesses in Montana, and 
across the country, that are constantly inventing and improving 
amazing innovations, and I appreciate the Department of 
Defense's commitment to working with small businesses.
    There are many success stories to point to. There are also 
some cases where it has been difficult for lean and mean small 
businesses to get their foot in the door, and I am going to 
talk more about that when we get into questions.
    But until then, we look forward to your testimony, and 
thank you very much for being here.
    Senator Cochran. Thank you, Senator.
    We are now pleased to welcome the witnesses, Mr. Robert O. 
Work, Deputy Secretary of Defense; Dr. William B. Roper, Jr., 
Director of Strategic Capabilities Office; and Dr. Steven H. 
Walker, Acting Director of Defense Advanced Research Projects 
Agency.
    And if it is okay with the members, I would appreciate your 
attendance. We will recognize members for questions after the 
panel has had an opportunity to make their statements.
    You may proceed.

                SUMMARY STATEMENT OF HON. ROBERT O. WORK

    Mr. Work. Thank you, Mr. Chairman, and Senator Tester, 
distinguished members of this committee.
    Thanks so much for the opportunity to be here today. This 
is a very, very important subject, and near and dear to our 
hearts.
    I would like, Mr. Chairman, if you could please pass on, on 
behalf of all of the Department of Defense, a get well and a 
speedy recovery to Vice Chairman Durbin. We would appreciate 
it.
    As you said, sir, I am joined by Dr. Will Roper and Steve 
Walker. They are going to discuss their teams' accomplishments, 
both in the Strategic Capabilities Office, as well as DARPA 
(Defense Advanced Research Projects Agency).
    We do have some classification concerns, so we will make 
sure that we do not go into any areas that we are uncomfortable 
with. But we can provide details in closed sessions, if you 
wish.
    Secretary Mattis, and I, and everyone in the Department is 
very focused on innovation at this time. I want to acknowledge 
this committee's support for many of the innovation initiatives 
we have approved over the last 3 years. And we hope to have the 
same support in the fiscal year 2018 budget.
    Now, most broadly, since the end of the Cold War, we have 
enjoyed military technical dominance over all of our potential 
adversaries. This has been a very unusual period of time; about 
25 years. Our dominance essentially went unchallenged in all of 
the operating domains: space, air, ground, sea, and undersea.
    And the impressive capabilities that we have built up in 
terms of stealth, precision strike, network sensors, and 
network command and control, they proved their worth when 
unveiled in 1991 and led to a period of operational dominance 
that has been quite striking.
    But as they say, Mr. Chairman, nothing invites imitation 
quite like success, and our competitors have really gone about 
pursuing their own advanced capabilities. And no two nations 
have spent more on these than China and Russia.
    Now, they have combined advanced capabilities that aim to 
deny us access into theaters of operations, and to deny us 
freedom of maneuver and freedom of action once there.
    So given our competitors' focus, their level of investment, 
and their determination to close the gap with the United 
States, we see our overwhelming operational and technical 
dominance starting to erode. And the trend lines concern us 
over time.
    I want to make sure that everyone understands that we 
believe we do have an overmatch against any potential 
competitor today. But what we are really focused on is 
maintaining that overmatch over time.
    There have been many ways we have described this over the 
past 3 years, the Defense Innovation Initiative, the 3rd Offset 
Strategy, and the Overmatch Strategy. But essentially what it 
is designed to do is to take a look at these technological 
trends and make sure that we maintain our overmatch over time.
    We are really focused on advanced Artificial Intelligence, 
autonomy, and big data analytics. All of those things are going 
to allow the Force to operate much more powerful joint multi-
domain battle networks of even greater power than we have seen 
in the past. And this applies across all of the operating 
domains, as well as cyber space and electronic warfare in the 
spectrum that Senator Tester talked about.
    We really believe that this is a time where we have to be 
very innovative and also very agile, and try to identify any 
impediments that are standing in our way to test new advances.
    Just as an example, we stood up an Algorithmic Warfare 
Taskforce just recently and that is supposed to accelerate, or 
we hope will accelerate, the integration of our big data and 
machine learning into our operations.
    Everything is being driven right now by commercial, not 
everything, but the vast majority of these capabilities, these 
dual technologies as we call them, are available to all our 
competitors. So it is really going to be important for us to be 
agile.
    The Senate and the House have directed us to split the 
Acquisition, Technology, and Logistics Undersecretary into two 
undersecretaries, one that focuses on research and engineering, 
and one on acquisition and sustainment. We believe that this is 
going to be one way in which we can be more agile.
    So we would applaud the support we have received from 
Congress on this and we are getting after it there pretty fast.
    If you have any questions, I can answer them during our 
question time.
    [The statement follows:]
               Prepared Statement of Hon. Robert O. Work
    Chairman Cochran, Vice Chairman Durbin, and distinguished Members 
of the Subcommittee, thank you for the opportunity to testify before 
you today on the Department's innovation initiatives. I am joined here 
today by Dr. Will Roper, Director of the Strategic Capabilities Office, 
and Dr. Steve Walker, Acting Director of the Defense Advanced Research 
Projects Agency. They will discuss their teams' accomplishments, with 
due consideration for classification concerns. We are always available 
to provide more details in a closed briefing as well. The topic of 
innovation is especially important to both Secretary Mattis and I 
appreciate that your committee is holding this hearing. I also want to 
acknowledge this committee's support of many of the innovation 
initiatives we have pursued during my time as Deputy Secretary.
    As you know from Secretary Mattis' testimony to this sub-committee 
in March, the Department of Defense is executing on his direction to 
restore the readiness of the force, both for today's fights, and 
tomorrow's. This is a three-phased multi-year effort:
  --Phase one is this year's appropriation with added money to get 
        aircraft back in the air, ships back to sea, and our troops 
        back in the field with the right equipment and training;
  --Phase two, starts with the President's fiscal year 2018 budget 
        request to prepare for sustained growth and to adapt to the 
        changing character of war by providing new capabilities to the 
        Joint Force; and
  --Phase three looks beyond fiscal year 2018 to ensure we stay ahead 
        of our advanced competitors in the long-term military technical 
        competition.
    This longer-term planning will be informed by the National Defense 
Strategy review currently underway and that will be completed by this 
fall. Without presupposing the results, I can say that Secretary Mattis 
is looking to this review--and others like the Nuclear Posture Review 
and BMDR--to ensure we build a more advanced and more lethal future 
force. No other nation in the world can compete with our young men and 
women in uniform; they are a high quality, highly trained, battle-
hardened force. It is DoD's responsibility to ensure the Joint Force 
has, and will continue to have, military capabilities that are superior 
to any potential adversary. For that, we rely on the scientists and 
engineers from across the Department's Research and Development 
enterprise and with our partners in industry.
    Since the end of the Cold War, we have enjoyed military technical 
dominance over all potential adversaries. The impressive capabilities 
the Joint Force possesses in precision strike, stealth, advanced 
sensors, and networked command and control emerged from what is called 
the 2nd Offset Strategy. Designed to counter the overwhelming 
quantitative advantage possessed by the Warsaw Pact, these capabilities 
proved their worth when unveiled in the First Gulf War in 1991. And by 
virtue of our being an aggressive first mover in these capabilities, we 
have dominated guided munitions warfare for the past 25 years. We have 
continually improved them during operations over the past 16 years of 
war, moving from the 2nd Offset ability to track and target tanks to 
today where we can track and target individuals--as seen in the global 
high-value terrorist hunting network that SOCOM uses today in Iraq and 
Syria.
    As they say, nothing invites imitation quite like success and our 
competitors have set about developing their own suite of 2nd Offset 
capabilities. No two nations have paid more attention to the 
capabilities and concepts we demonstrated in the First Gulf War than 
China and Russia. They are making enormous investments in precision 
strike, advanced sensors, networking, and stealth. In some areas, they 
are pursuing advanced weapons development to an extent that we haven't 
seen since the mid-1980s, near the peak of the Soviet Union's surge in 
Cold War defense spending. And in the process of developing their own 
facsimiles of our 2nd Offset Strategy capabilities and concepts, they 
identified weakness and potential vulnerabilities in our own--and 
focused their investments in those areas. They combined our 2nd Offset 
capabilities in ways to deny us access to theaters, and then to deny us 
freedom of maneuver and action once there. Foremost among these 
capabilities are advanced electronic warfare systems, extensive 
counter-space capabilities, offensive cyber weapons, accurate and 
sophisticated cruise and ballistic missiles, and improved undersea 
warfare capabilities. Unsurprisingly then, given our competitors' 
focus, level of investment, and determination to close the gap with the 
world's lone superpower, the overwhelming technical dominance we have 
maintained across operating domains for the past 25 years is eroding.
    That's why we launched the 3rd Offset Strategy (3OS)--new 
combinations of technologies, operational concepts, and organizational 
constructs to maintain our ability to project overwhelming combat power 
into any theater and at times of our choosing. Such new approaches will 
require us to leverage commercial innovation and to greatly accelerate 
the refresh cycle of new weapons and systems. In this more competitive 
world, DoD must move faster to stay ahead of emerging threats.
    The 3OS is based on the premise that advances in artificial 
intelligence and autonomy will allow the joint force to develop and 
operate advanced joint, collaborative human-machine battle networks of 
even greater power. These battle networks will be able to synchronize 
simultaneous operations conducted in space, air, sea, undersea, land, 
and cyber domains using manned and unmanned systems. We believe these 
capabilities will be critical in this new era of warfare where 
operations, particularly cyber and electronic warfare, move at machine 
speeds. These emerging concepts will support faster and more effective 
decisionmaking, enable improved coordination of operations across 
domains, support the use of collaborative teams of manned and unmanned 
systems, and integrate electronic warfare and cyber operations.
    Just last month we stood up an Algorithmic Warfare Cross Functional 
Team to accelerate DoD's integration of big data and machine learning 
into its operations and to turn the enormous volume of data available 
to DoD into actionable intelligence and insights at speed. The 
Department's significant investments in collectors and sensors is 
generating an ability to collect more imagery, from more sensor types, 
than at any time in history. This is creating mounting challenges of 
scale for analysts faced with the labor-intensive task of sifting 
through the sheer volume of data collected. In this data driven world, 
providing our analysts with advanced machine-learning tools will 
improve our ability to observe, orient and, when necessary, decide and 
act better and faster than our adversaries. This is just one example of 
where we are bringing in rapidly advancing commercial technology to 
dramatically improve our operations.
    Because so much of today's technology is being driven by the 
commercial world, to which all nations have access, I believe the 
emerging competitive environment will be much more of a level playing 
field than in the Cold War. But I'm okay with that because the United 
States tends to do better when we're in a competitive contest. We 
haven't been challenged by peer competitors since the Cold War. We are 
now. Today's competitive environment is akin to the 1920s and 1930s 
inter-war period when significant advances were made in new 
technologies and weapons, including aircraft, armored vehicles, 
submarines, aircraft carriers, radio, and radar. Every military had 
access to these very same tools, but not every nation was able to 
harness those new technologies and develop effective new ways of 
fighting as the Germans did with Blitzkrieg, the American Navy with 
carrier aviation, or RAF Fighter Command with an integrated air defense 
system. What we do know is that the military that can best capture a 
set of ideas about how to use new technology and develop new 
operational concepts will have a big advantage on any future 
battlefield.
    And in a world of equal access to technology, innovation is 
important but speed becomes the differentiating factor. How quickly we 
can translate technology into a fielded capability is where we can 
achieve and maintain our technological edge. This isn't just speed of 
discovery--it is speed of delivery to the warfighter. Sustaining U.S. 
technological superiority hinges on our ability to out innovate our 
adversaries, but it is important to remember innovation is more than 
just technology--it could be using existing technology in a new way--
such as how SCO repurposes existing weapons to provide them new and 
asymmetric capabilities.
    Moving faster is also the reason we are pushing more prototyping; 
demonstration and experimentation efforts that are intended to mature 
technologies demonstrate their core technical capabilities and deliver 
a limited number of representative system prototypes that can be 
exercised by operators. Our pursuit of a 3rd Offset Strategy has opened 
the flood-gates to innovative approaches, and we have inspired people 
to be more creative in how they approach solving DoD problems--whether 
they are technical, programmatic, or organizational. Pilot programs are 
a small fraction of DoD overall investment, yet they have sparked a 
wealth of new ways to think about our problems and our way of doing 
acquisition. They allow us to try before we buy and gather lessons 
learned before we scale up. We have found that strategic use of pilot 
projects and prototyping can speed innovation to market--it allows us 
to drive down technical risk; refine requirements, evaluate new 
concepts and get warfighter feedback before we commit to a major 
acquisition program.
    Those are the obvious benefits--the less obvious benefits include 
stimulating industry design teams, contributing to new methods and 
manufacturing, and increasing the likelihood of a successful Program of 
Record by ensuring that we better understand what the requirements 
actually demand when made into a real system, and the cost of doing so. 
I appreciate this committee's efforts in support of innovation to 
include the addition of $100 million in fiscal year 2017 funds for the 
Rapid Prototyping Program. We'll work closely with you and your staff 
to be transparent in how we apply our prototyping funds to accelerate 
needed capabilities to our warfighters.
    As you know, fiscal year 2017 NDAA, Section 901 specifically 
devolves the Under Secretary of Defense for Acquisition, Technology and 
Logistics (USD(AT&L)) into two new Under Secretaries of Defense (USDs); 
one for Research and Engineering and one for Acquisition and 
Sustainment. This restructuring initiates a change in the role played 
by AT&L. Under this new structure, the USD(R&E) will be empowered to 
take suitable risks to achieve outcomes. They will shed the risk-averse 
mantel of traditional acquisition and pursue innovative technology and 
concepts that can result in dramatic increases in capability and new 
ways to achieve mission objectives. They will champion the 'hard 
thinking' necessary to facilitate a change in how we operate. The 
likelihood of successful programs will increase through up-front trial 
and error, learning from mistakes and factoring what they learn into 
realistic requirements. This path to increased capability leverages the 
expertise within the Department of Defense and the broader Research and 
Engineering Enterprise to ensure that the U.S. military remains the 
pre-eminent fighting force in the world.
    The Joint Force depends on the S&T Enterprise to research, develop, 
and demonstrate high pay-off technology solutions for hard problems 
faced by our troops in ever-changing, complex environments against an 
increasingly diverse set of threats. Uncertainty and complexity are at 
the heart of the military's challenges. To better prepare for 
operational and technical surprise requires that we up our game in 
identifying, leveraging and deploying innovative disruptive 
technologies that may have been developed outside of the Department of 
Defense. That is why efforts like Defense Innovation Unit Experimental 
(DIUx) are so important--they are able to scout for disruptive 
technologies among cutting-edge commercial companies that have not 
previously engaged with the Department or have not focused on national 
security. Out-innovating our competitors will require us to be 
increasingly open and collaborative, it will push us to execute 
transitions from concept to field at a much faster pace, and engage the 
Department's extended S&T community to help drive the pace of 
innovation in areas that will yield long-term military advantage.
    Again, the Secretary and I are grateful that this committee 
included fiscal year 2017 funding to allow us to build on DIUx's 
success--to date, 356 companies across 36 States have provided 
proposals to DIUx. It is working on the most important priorities of 
the Department--including counter-UAS, missile defeat in the Pacific 
Command area of responsibility, and new tools for our special 
operations forces battling ISIS. Several of its projects are in the 
final phases of testing and close to transitioning to become programs 
of record--the ultimate goal of DIUx's mission to bring commercial 
technology to the warfighter.
    I strongly believe that since its formation in 1947, the Department 
of Defense has been an engine of innovation that should be the envy of 
any organization--government or commercial--anywhere on this planet. 
Today, the DoD Laboratory Enterprise comprises some 38,000 scientists 
and engineers at more than 60 labs across 22 States. For decades, our 
labs have been at the forefront of science and technology research, 
developing technology we use every day like GPS, unmanned aircraft, and 
the Internet itself. They are working hard every day to ensure U.S. 
technological superiority, to prepare for an uncertain future, and to 
accelerate delivery of technical capabilities to the warfighter. Our 
efforts to tap into non-traditional performers through DIUx complements 
but could never replace that significant expertise and superb 
facilities resident in our laboratories.
    At least since World War II we have made it a national priority to 
never allow our troops to go into combat without the absolute finest 
equipment that America's genius scientists and engineers can develop. 
Because we know we will have the best people in the world. Marry the 
two of them up and you have a force that can dominate on any 
battlefield. I firmly believe, as does Secretary Mattis, that in this 
competitive world we must continue to push the edges of innovation. The 
challenge to our military's technological superiority is not a tomorrow 
problem--it is here today.
    As it has in the past, technological innovation can serve as a 
catalyst to new ways of fighting, but there are no silver bullet 
solutions. Our innovation must be broad-based and rooted in realistic 
wargaming, experimentation, and new concept and leadership development, 
which enables our people to adapt to situations we can't yet imagine. 
Ultimately, we must provide our service members with an unfair 
competitive advantage, so that they will never find themselves evenly 
matched in a conflict--that is the essence of deterrence and what will 
ultimately safeguard all of our interests.
    The Department remains committed to ensure the Joint Force is 
prepared for any future conflict and we are committed to working 
closely with Congress to stimulate innovative capabilities that 
preserve our technological edge. In this regard, the DoD Science and 
Technology (S&T) community has been extremely fortunate to benefit from 
strong congressional support over the last 20 years--particularly from 
this subcommittee. That strong support has resulted in a stable 
budget--the kind that Secretary Mattis desires for the entire 
Department.
    Thank you for your support.

    Senator Cochran. Thank you, very much.
    We are going to call on each individual witness for a 
statement that you would like to make.
    And at this time, we could return to the panel and call on 
Dr. William B. Roper, Jr., Director of Strategic Capabilities 
Office.
STATEMENT OF DR. WILLIAM B. ROPER, JR., DIRECTOR, 
            STRATEGIC CAPABILITIES OFFICE
    Dr. Roper. Thank you, Chairman Cochran, and Senator Tester, 
and members of the subcommittee.
    It is an honor to be here to share the work that we are 
doing in the Strategic Capabilities Office, or SCO, and to do 
so with colleagues as distinguished as Secretary Work and Dr. 
Walker.
    It goes without saying, as we sit here today; our national 
security challenges are global and increasingly interconnected 
from terrorism in the Middle East, to North Korea's nuclear 
pursuit, to Chinese and Russian territorial ambitions. The need 
for cutting edge defense is indeed increasing.
    At the same time, many of our military technologies, as 
mentioned by the Deputy Secretary, are now being challenged by 
advanced threats. Satellites can be shot down. Navigation can 
be jammed. Platforms can be targeted. And bases can be 
saturated by missile raids.
    Though these countermoves are concerning to us, buried in 
them is an assumption we strive to make fatal in SCO, and that 
is that tomorrow's military will be as predictable as today's.
    The sports' world is very familiar with the curse of 
predictability. If our military were a football team, analysts 
would say we have run our current playbook for too long. Rivals 
have watched decades of game film and exploited it.
    But whenever this happens in football, successful teams 
turn this into an advantage by creating trick plays. They run 
in their pass formations. They pass in run formations. They re-
imagine their strengths, rather than playing to their 
opponents.
    Creating the analog of trick plays for our military is the 
primary mission of SCO. Reimaging its strengths--ships and 
submarines, aircraft, armored vehicles--and using them in 
unforeseen and therefore hopefully uncontested ways.
    Regaining the element of surprise with systems we have 
today is our counter-countermove to defeat the advanced threats 
we face. And I am pleased to say that many systems have been up 
to this task.
    Though the approach often has cost and speed benefits, its 
core tenet, the need for change, is anchored in the 
Department's greatest strength, one that cannot be easily 
stolen or copied. And that is our experienced operators who can 
do the unparalleled with today's systems and rapidly master any 
unconventional tactics we throw at them. As in football, it is 
people not the plays that ultimately win the game.
    To create surprise, SCO has created an innovation process 
that is itself innovative because it flows in reverse; from 
existing systems to new missions, rather than existing missions 
to new systems. To date, it has produced 34 new war fighting 
concepts, transitioned 6 to the services, with 5 more nearing 
transition as we speak.
    As of yet, none have failed the transition. And this should 
tell you, we enjoy strong partnerships with the system owners, 
the services, as well as the system operators, the combat and 
commands.
    It is also due to using prototyping by cumbersome 
requirements processes to be able to prove out and find good 
enough solutions which buys perfect ones in the future and buy 
them quickly. Prototyping is a natural bridge between new 
technologies and programs of record, especially in a world of 
rapid technology change.
    When applied to the broad catalog of U.S. systems, we are 
evolving our power projection playbook via three mechanisms: 
enabling systems to cross or blur domains, teaming systems, and 
leveraging enabling commercial designs and technologies.
    Blurring domains increases the complexity of fighting the 
United States. As an example of this we are upgrading the 
Army's ATACMS missile to enable it to sink enemy ships in 
addition to its land strike duties.
    Teaming systems enables completely new war fighting 
concepts, ones that can keep operators safer. As an example of 
this, we are converting existing naval vessels into 
semiautonomous ghost fleets that can shoulder dangerous 
missions without putting our sailors at risk.
    Finally, leveraging commercial design and technology 
positions the Department to adopt external developments and 
adapt at their pace. This adoption will absolutely necessitate 
treating data as a strategic resource, as a powerful tool, and 
a modern development, and we must use it.
    An example of our doing so is using big data analytics and 
machine learning to create an information picture so that our 
commanders can see the complex information in the world around 
us that is increasingly important to our national security.
    In conclusion, both our challenges and opportunities are 
great; are challenges because they require a new playbook, but 
are opportunities because creating one is leveraging some of 
our Nation's greatest strengths, ingenuity, technology, and as 
mentioned previously, our unparalleled operators. I like our 
chances.
    Thank you again for holding today's hearing, and for your 
continued support of SCO, and I look forward to your questions.
    [The statement follows:]
            Prepared Statement of Dr. William B. Roper, Jr.
    Chairman Cochran, Vice Chairman Durbin, and distinguished Members 
of the Subcommittee, thank you for the opportunity to testify before 
you today. It is an honor to be here with Deputy Secretary Work and Dr. 
Steve Walker, both of whom share a common passion for modernizing our 
military in the face of changing technologies and changing modalities 
of war. To this end, the Department of Defense (DoD) must accomplish 
three things: combating non-state terrorism, modernizing the nuclear 
force, and overcoming advanced conventional threats, all in an era 
where technology exclusivity can no longer be our strategy's linchpin. 
Though daunting, there are many reasons for optimism. As the near-term 
element of the Department's Third Offset Strategy, the Strategic 
Capabilities Office, or SCO, has created new--and surprising--ways of 
using existing military and commercial systems to win tomorrow's war 
and buy time for future technologies to emerge. I am pleased to share 
with you that many of our current platforms have been up to the task. 
However, as we create new elements of surprise, there is one challenge 
we cannot take lightly: that technologies developed outside the 
government will strongly affect the next epoch of national security. To 
remain dominant, even relevant, we must leverage commercial 
technologies and adapt at their pace. Doing so will require embracing 
``good enough'' solutions and avoiding cumbersome requirements that 
drive cost, schedule, and narrow the industry base. This is a core 
tenet of our innovation process in SCO that I look forward to sharing 
with you today.
                  changing our military's ``playbook''
    Our national security challenges are global and increasingly 
interconnected. Violent extremism in the Middle East and Africa; North 
Korean provocations; Iranian missile ambitions; Chinese military 
advances; Russian aggression in Ukraine, Syria, and cyberspace; and a 
worldwide Internet of Things creating new military possibilities and 
vulnerabilities: needless to say, the demand for cutting-edge defense 
is growing. At the same time, game-changing technologies of the past--
satellites, GPS, stealth, and net-enabled weapons to name a few--are no 
longer solely the purview of the United States; technology exclusivity 
is indeed ending. But this does not mean our military's decline is a 
fait accompli; how technologies are used on the battlefield is just as 
much a matter of strategy and concepts of operation (CONOP) as it is 
science and engineering.
    The foundational strategy and CONOP of our current conventional 
force is achieving high precision so that a small number of weapons, 
vice the millions required in World War II, can win wars. This 
precision is achieved by centralizing and recycling many elements of 
the ``kill chain''--the set of steps from finding to destroying 
targets--to make the overall architecture affordable: satellite-based 
targeting and navigation are reused; planes, ships, and tanks are 
reloaded; and bases are resupplied. This keeps the cost of the weapons 
they enable affordable, but it assumes these centralized components 
will always be available. For decades, they have been. But now, 
satellites can be shot down; navigation, jammed; platforms, targeted; 
and bases, saturated by missile raids. Often called an anti-access, 
area-denial (A2AD) strategy, this countermove targets our centralized 
components because they represent single points of failure. Yet A2AD 
strategies carry their own fatal assumption: that tomorrow's U.S. 
military will be as predictable as today's.
    The sports world is familiar with the curse of predictability. If 
our military were a football team, analysts would say we have run our 
current playbook for too long; rivals have watched our ``game film'' 
and exploited it. Whenever this happens in football, teams turn this 
into an opportunity by creating trick plays: running in pass 
formations, passing in run formations--reimagining their strengths 
rather than playing to their opponents'. Creating the analog of trick 
plays for our military is SCO's primary mission: reimagining its 
strengths--ships, submarines, aircraft, armored vehicles--by using them 
in unforeseen, and hopefully uncontested, ways. Regaining surprise and 
transcending predictability is our counter-countermove to deter and 
defeat A2AD. However, striking the balance between deterrence and 
warfighting is one place the football analogy breaks down. There is no 
deterrence in football; teams show up to play regardless of skill 
differential. Because of this, surprising plays are concealed until 
game day, but our military's surprises must fulfill two competing 
roles: war reserves to win conflicts and deterrence reserves to avoid 
them altogether. These latter ``psychological salvos''--where 
capabilities are unveiled to change calculus and deter aggression--must 
be carefully and strategically analyzed to maintain a balanced 
stockpile for both peace and war. Aiding this is SCO's secondary 
mission, and to that end, most of our capability details remain 
classified.
    Though this innovation strategy often has cost and speed benefits, 
its core tenet, the need for change, is anchored in the DoD's greatest 
advantage: our experienced operators, who can do the unparalleled with 
today's systems and rapidly master new, unconventional tactics. As in 
football, it is people--not plays--that ultimately win the game.
                         sco innovation process
    SCO's innovation process is, itself, innovative because it flows in 
reverse: from existing systems to new missions rather than existing 
missions to new systems. Living within the constraints of existing 
hardware and software focuses ideas, encourages joint cross-domain 
thinking, and partners SCO with system owners (usually the Services) 
and the system operators, the Combatant Commands, to prove out concepts 
before buying them in bulk. To date, SCO has produced 34 new 
warfighting concepts and transitioned 6 to the Services with none 
failing to transition thus far. We anticipate five more transitions in 
the near-term. Our portfolio is currently 35 percent Navy, 24 percent 
Air Force, 17 percent Army, and 24 percent other organizations.
    SCO's unique innovation process enables us to move and grow 
quickly. Starting as a $50 million effort, SCO's PB17 request was $902 
million, up from the $519 million appropriated the year before. This 
growth is due to our strategic partnerships with the Services, demand 
from the Combatant Commanders, and several key process characteristics:
  --Creative Imperative: Because SCO has no top-line budget, we must 
        create and secure funding for new concepts each budget cycle or 
        else, slowly evaporate. This ``survival-of-the-fittest'' 
        dynamic maintains the healthy sense of creative urgency we need 
        to sustain idea quality each year.
  --Requirements Flexibility and ``Good Enough'' Solutions: Because SCO 
        innovates with existing systems, we cannot apply traditional, 
        often overly constraining, requirements processes. In their 
        place, we continually trade cost, schedule, and performance 
        throughout each project's life to converge on high-payoff but 
        achievable designs. Because speed of response is a key metric, 
        good enough solutions that provide earlier, and often cheaper, 
        options usually win over slower, costlier, but better 
        performing counterparts.
  --``Fly-Before-You-Buy'' Prototyping: Because SCO repurposes systems 
        for new missions, our concepts are high risk until 
        demonstrated, even though the systems, themselves, may be 
        mature. By funding two- to four-year prototyping efforts (i.e., 
        ``flying'') with the Services, we prepare for future transition 
        (i.e., ``buying'') without prematurely committing to new 
        programs before cost and performance are fully understood. 
        Prototyping is a natural bridge between new technology and new 
        programs of record, especially in an era of rapid technology 
        change.
  --Cross-Cutting Solutions: Squeezing the full potential out of 
        current systems forces us to look orthogonally across Service, 
        Mission, Classification, and Title divides. Many of our 
        projects integrate disparate capabilities into hybridized joint 
        solutions.
  --Strategic Partnerships: Our partnerships with the Services, Defense 
        Agencies, Technology Developers, Combatant Commands, and the 
        Intelligence Community are the true secret to our success; we 
        are simply a hub that allows these important spokes to turn 
        around a high-risk, high-payoff axle.
    --Services and Agencies: The systems we reinvent are owned by 
            Services and Agencies; as such, we cannot explore new 
            concepts without their unique engineering and programmatic 
            expertise. SCO partnerships now span the Air Force, Army, 
            Navy, Marine Corps, Missile Defense Agency, National 
            Geospatial Agency, and the Office of the Under Secretary 
            for Intelligence.
    --Technology Developers: Because SCO leverages, vice creates, new 
            technologies to ``up-gun'' current systems, we have active 
            technology transfers with the Office of Naval Research, 
            Naval Research Laboratory, Air Force Research Laboratory, 
            Army Research Laboratory, and the Defense Advanced Research 
            Projects Agency.
    --Combatant Commands: The Commands are our customers; keeping close 
            linkage with them is essential. As such, U.S. Pacific 
            Command and U.S. European Command created local SCO teams 
            to be our in-theater umbilicals, ensuring our ideas target 
            their most difficult challenges. We also have active 
            efforts with U.S. Strategic Command and U.S. Special 
            Operations Command and are beginning work with U.S. 
            Transportation Command and U.S. Central Command.
    --Intelligence Community: SCO is a voracious consumer of 
            intelligence; it is vital to our understanding of 
            adversaries and the challenges and opportunities they 
            present. Because the information we covet must be 
            synthesized across multiple topics and disciplines, we have 
            forged close bonds with the Intelligence Community, turning 
            their insights into new concepts.
    When applied to the broad U.S. catalog of systems, this process 
evolves our immediate power projection playbook via three mechanisms: 
(i) enabling systems to cross or blur domains, (ii) creating teams of 
manned and autonomous systems, and (iii) leveraging enabling commercial 
designs and technologies.
                     crossing and blurring domains
    Modifying systems for new missions in new domains--a practice 
likely to become easier as designs become open and payloads, modular--
has the obvious advantage of creating fog of war, but it also provides 
an additional bonus--rapid force structure--whenever modifications can 
be retrofit to current inventories en masse. Because inventory numbers 
are an important component of peacetime posture, achieving them rapidly 
makes this approach highly appealing. Some examples include:
  --Anti-Ship Standard Missile-6 (SM-6): SM-6 was designed to defend 
        ships from incoming threats. Partnering with the Navy, we added 
        an anti-ship role into this now-fielded system, blurring the 
        line between offense and defense.
  --Maritime Tomahawk: Tomahawk is a go-to weapon for striking targets 
        on land. We partnered with the Navy on advanced maritime 
        targeting to hold ships at risk as well.
  --Cross-Domain Army Tactical Missile System (ATACMS): ATACMS has been 
        a cornerstone of the Army's long-range fire capability since 
        the 1980s. Partnering with the Army, SCO is incorporating an 
        existing seeker that will enable our ground forces to targets 
        at sea.
  --Hypervelocity Guns: The Army's 155mm Paladin and Navy's five-inch 
        guns are relatively unchanged since their development in the 
        1990s. By leveraging projectiles from the electromagnetic 
        railgun program, we are prototyping a system capable of both 
        low-cost missile defense and long-range strike, blurring the 
        line between artillery and active defense.
                  creating manned and autonomous teams
    Teams of systems can survive--and even thrive--in contested 
environments where individuals, alone, would fail. This is simply due 
to separating, and then specializing, responsibilities amongst multiple 
team members as opposed to relying solely on ``solo act'' systems. Some 
of our most unconventional--and usually classified teams--are 
``match.mil'ed'' across Service and Agency lines. However, a few we can 
share publicly are:
  --Arsenal Plane: Stealth fighters penetrate enemy airspace but at the 
        expense of weapons capacity. Partnering with the Air Force, we 
        are teaming them with standoff Arsenal Planes to extend mission 
        impact without landing to resupply.
  --Sea Mob/Ghost Fleet: Because of their high-value sensors, weapons, 
        and most importantly people, naval ships must be heavily 
        defended. Partnering with the Navy, SCO is converting existing 
        vessels into autonomous, collaborative ``ghost fleets'' and 
        ``sea mobs'' capable of dangerous missions without putting 
        critical ships at risk.
  --Avatar: Similar in concept to Ghost Fleet, SCO is partnering with 
        the Air Force to team expendable drones with existing fighters, 
        enabling pilots to ``quarterback'' them from safety.
  --Third Eye: Kill chains are defeated by denying single links. Our 
        Third Eye program is working with multiple Services to create 
        resilient, smart ``kill webs'' where disparate sensors and 
        shooters are increasingly interconnected.
                   leveraging commercial technologies
    The commercial revolution in ``smart'' technologies is rapidly 
changing most facets of the world. This revolution is taking ordinary 
things in our lives--refrigerators, thermostats, phones, to name a 
few--and infusing them with compact sensors and processors; wrapping 
them in high-speed networks and cloud-based services; and equipping 
them to learn at machine speed.
    The net result is new, transformational applications, even though 
most of the underlying hardware--compressors, thermometers, and 
antennae--do not radically change. Its spillover into national security 
is accelerating. In a departure from the past decade, the Department 
must become a fast adopter of external technology to stay on the 
cutting edge. Though evolving commercial products may not meet all 
traditional DoD requirements, failure to move at their speed risks our 
entanglement in the global web of things, but not on our terms. We must 
envision and embrace ``smart'' military systems in order to thrive on 
this web; using commercial systems--especially data-driven 
technologies--and agile manufacturing to upgrade legacy assets is one 
way to begin. Some of our examples include:
  --Advanced Navigation: Legacy air-to-ground weapons like the Small 
        Diameter Bomb use GPS to navigate, making them effective for 
        strikes against terrorists but less so in regions where GPS is 
        denied. Partnering with the Air Force, SCO is using commercial 
        smartphone-class sensors so that these weapons remain mission 
        effective without GPS.
  --Information Common Operating Picture (iCOP): The information 
        environment--changing sentiments, opinions, news, and 
        misinformation--is increasingly important to peacetime and 
        conflict. SCO is developing an information common operating 
        picture, or iCOP, enabling the Department to understand and 
        respond to changes in the information environment using 
        advanced analytics, machine learning, and visualization.
  --Perdix: Fighters are fast and maneuverable, making loitering over 
        hostile territory a difficult task. By equipping them with 3D-
        printed swarming micro-drones, our fighters can now efficiently 
        search hazardous areas without risk to pilots.
    The rest and best of our project details must remain classified, 
but I hope these examples illustrate how widespread applications can 
be--no facet of future conflict should be as it seems.
                               conclusion
    In conclusion, both our challenges and opportunities are great: our 
challenges, because they require DoD-wide change; our opportunities, 
because they involve some of our greatest strengths--ingenuity, 
technology, and operational prowess. If we leverage these strengths in 
unison, a new U.S. power projection playbook--one that undercuts 
attempts to exploit our predictability--is imminently possible with 
today's systems. However, to sustain momentum on this playbook and buy 
time for new technologies to emerge, we need the stability of budgets 
without continuing resolutions or sequestration: they are syphons of 
creativity and energy we can ill afford.
    Thank you, again, for the opportunity to testify today and for your 
continued support. I look forward to your questions.

    Senator Cochran. Thank you, very much.
    We now will now turn to Dr. Steven H. Walker, Acting 
Director of the Defense Advanced Research Projects Agency.
STATEMENT OF DR. STEVEN H. WALKER, ACTING DIRECTOR OF 
            DEFENSE ADVANCED RESEARCH PROJECTS AGENCY
    Dr. Walker. Chairman Cochran, Senator Tester, and members 
of the subcommittee.
    Thank you for the opportunity to testify before you today 
about how we innovate at the Defense Advanced Research Projects 
Agency.
    I am Steve Walker, DARPA's Acting Director, and it is a 
pleasure to be here with the Deputy and Dr. Roper.
    DARPA's reputation for innovation goes back about six 
decades to just after the Soviet Union's launch of Sputnik when 
DARPA was created to prevent such strategic surprises from 
happening in the future.
    Of course, the best way to prevent surprise is to see what 
is possible in the future. And that is exactly what DARPA 
strives to do every day.
    Through our work at the extreme frontiers of physics, 
chemistry, biology, mathematics, material science, electronics, 
and engineering, DARPA helps ensure the United States will, for 
the foreseeable future, be the source and not the target of 
strategic surprise.
    DARPA's job is to do the fundamental research, the proof of 
principle, the early stages of advanced technology development, 
to take impossible ideas to the point of implausible and then 
surprisingly possible.
    No other agency within the Department of Defense has the 
mission of working on projects with such a high possibility of 
failure or such a high possibility of producing truly 
revolutionary capabilities. Indeed, a big part of DARPA's 
particular expertise in this area is managing the risk to keep 
that innovation pipeline flowing.
    DARPA's history in this regard is well established with our 
seminal roles in the development of the Internet, stealth 
technology, and virtually every enabling technology that exists 
in your smart phone.
    But DARPA's success at the hub of innovation continues to 
this very day and those innovations are making a difference to 
our servicemembers every day. My written testimony includes 
more than a dozen examples of DARPA-developed technologies that 
are currently transitioning to the Services.
    Radio frequency arrays that are making our radar see 
farther than our adversaries' radars, radiation detectors that 
are small enough and cheap enough to put on your belt, and 
network thousands together to prevent the terrorists from 
developing that dirty bomb that can threaten our cities, 
electronics that allow our ships to know where they are without 
GPS; radically different, new kinds of vaccines that, together 
with diagnostic kits, will stop the next epidemic in its 
tracks, a 132-foot long oceangoing vessel that is completely 
autonomous; and a space surveillance telescope that allows the 
Air Force to see the tiniest objects 22,000 miles above the 
earth where most of our valuable satellites reside.
    These are just some of the technologies and capabilities 
that are now moving from DARPA into the hands of the Services.
    But again, innovation at DARPA has not rested since we have 
developed these breakthroughs, so I would like to close the 
oral testimony today with a look at two future areas we are 
working hard.
    One is the area of biology and technologies that are 
allowing scientists to rewrite the genetic codes of plants and 
animals. This kind of gene editing offers great potential in 
the areas of health, medicine, bio-defense, and agriculture. 
But it also raises new and potentially devastating risks if 
these tools are used carelessly or for nefarious purposes.
    DARPA has recently launched a program called Safe Genes 
which is developing ways to building in molecular safeguards so 
potentially harmful genetic changes can be prevented or, if 
necessary, reversed.
    Success will require significant advances in molecular 
biology and genetics, areas that are increasingly important to 
national security. And that is why DARPA stood up the 
Biological Technologies Office about 3 years ago.
    A second example I would like to offer is different, 
Artificial Intelligence. AI is appearing in a growing number of 
areas from self-driving cars to increasingly autonomous 
military systems. These computer systems are extremely 
sophisticated and increasingly competent.
    But interestingly enough, when they make mistakes, they 
make mistakes no human would ever make. And so it is important 
for us to understand why we cannot predict when these machines 
will make mistakes and how they make these mistakes.
    It is a hugely complicated problem, but if we are ever 
going to trust machines to help us in the future in war 
fighting, we are going to need to understand that, and DARPA 
has started programs in this area. Explainable AI is one, along 
with a number of other related programs, to answer these 
questions.
    These are two future-looking areas of about 200 ambitious 
programs we currently have underway at DARPA, a portfolio of 
which I could not be more proud.
    So I look forward to working with the members of this 
subcommittee, and others, to ensure that DARPA, and the United 
States, maintain our historical lead in the development and 
application of powerful technologies, and to their safe and 
responsible application in support of a more stable and secure 
world.
    Thank you.
    [The statement follows:]
                Prepared Statement of Dr. Steven Walker
    Chairman Cochran, Ranking Member Durbin, and Members of the 
Subcommittee, thank you for the opportunity to testify before you today 
about how we innovate at DARPA, the Defense Advanced Research Projects 
Agency. I am Steve Walker, DARPA's Acting Director, and it is a 
pleasure to be here with my Department of Defense (DoD) colleagues. 
Each of us oversees a specific aspect of the Department's innovation 
ecosystem, and I look forward to sharing with you a snapshot of how we 
at DARPA contribute to that overall engine of progress.
    DARPA's history dates back six decades, when our Cold War 
adversary, the Soviet Union, launched Sputnik, the first artificial 
satellite to circle the Earth. The shock of finding ourselves outpaced 
in space led quickly to the creation of DARPA and its singular mission: 
to prevent such instances of strategic surprise.
    Of course, the best way to prevent surprise is to have a broad 
vision of what could become possible in the future. And that is exactly 
what DARPA strives to do every day, as it conceives, develops, and 
demonstrates breakthrough technologies that push today's limits and 
help make the improbable real. Through our work at the extreme 
frontiers of physics, chemistry, biology, mathematics, materials 
science, electronics, and engineering, DARPA helps ensure that the 
United States will, for the foreseeable future, be the source--and not 
the target--of strategic surprise.
    That mission differs from the ones overseen by my colleagues in 
other parts of the Pentagon. Some DoD research teams, including many 
working in the various Service laboratories, are focused on developing 
new technologies to fulfill specific goals for programs of record. 
Others, like my colleagues from the Department's Strategic Capabilities 
Office, are taking existing technologies, individually and in 
combination, and finding new, unanticipated applications for them.
    DARPA's contribution to this innovation matrix is far to the left 
of these in terms of developmental staging. DARPA's starting point is 
more typically along the lines of ``That's impossible.'' Our job is in 
large part to change what's possible--to do the fundamental research, 
the proof of principle, and the early stages of technology development 
that take ``impossible'' ideas to the point of ``implausible but, 
surprisingly, possible.'' No other agency within the Defense Department 
has the mission of working on projects with such a high possibility of 
failure--or such a high possibility of producing truly revolutionary 
new capabilities. Indeed, a big part of DARPA's particular expertise is 
managing risk in ways that help keep the innovation pipeline flowing.
    DARPA's history in this regard is well established, including its 
seminal role in the development of the Internet, stealth technology, 
and virtually every enabling technology that makes today's mobile 
phones as smart as they are--from the tiny radio transmitters that 
connect us to the Nation's network of cell towers; to the 
accelerometers, inertial measurement units, and miniaturized GPS 
components that tell us where we are and where we are going; to the 
touch screens that respond to the subtle swipe of a finger; and the 
ever-responsive voice of Siri.
    That's the past. DARPA is also well known for its ambitious 
imaginings for the future. We are making solid progress, for example, 
toward our audacious goal of creating a reusable space plane that can 
take off and land10 times in 10 days--an achievement that would enable 
the rapid reconstitution of an entire constellation of satellites if 
that need were ever to arise. We are also aiming to bend some of the 
most fundamental laws of physics and slice time itself into 
infinitesimally small snippets to create atomic clocks and navigational 
devices of almost unimaginable precision. And our emerging focus on 
neurotechnology points to a possible future in which individuals will 
be able to enjoy the benefits accelerated learning, enhanced 
occupational training, strengthened memory, and the ability to interact 
seamlessly with computers and other digital devices. Later in this 
testimony I will elaborate on these and other early efforts to change 
the nature of our technological future.
    But what I would like to address first is a portion of DARPA's 
portfolio that often gets overlooked--neither the Agency's early 
history nor its exciting future. I am referring to the work that DARPA 
has been doing in just the past several years and that is right now 
making its way into the hands of our Nation's warfighters and Defense 
Department systems, where it is providing new, game-changing 
capabilities for national security. I want to highlight some of these 
technologies and resulting capabilities because, as impressive as our 
historical accomplishments have been and ambitious as our dreams may 
be, the thing I am perhaps most proud of at DARPA is the constancy of 
the Agency's creative energy--the steady pipeline of innovations that 
the DARPA model manages to maintain--and the day-to-day difference that 
makes for the men and women who work every day to keep our Nation safe.
    To be sure, not all of DARPA's accomplishments move directly into 
the military Services. Some of them transition first to private-sector 
innovators who, inspired by our often-surprising proof that something 
seemingly impossible is actually possible, then build upon DARPA's 
fundamental advances to create powerful new commercial products. But by 
design, directly or indirectly, even DARPA's most basic advances are 
aimed from the start to fuel advances that have the potential to 
address national security needs--whether by delivering new capabilities 
directly to the Services or by breaking open a field, letting the 
private sector run with it, and then amplifying the resulting off-the-
shelf products with additional ``secret sauce'' for use by the DoD.
    The past few years have seen many such success stories in which 
notable technical advances have found their way into operational 
settings--far more than I think might reasonably be expected from an 
agency of just 200 government employees tasked with trying to do the 
nearly impossible. Among them:
Long Range Anti-Ship Missile (LRASM)
    DARPA's LRASM program was created to address a pressing need for 
longer-range anti-ship missiles able to counter advanced electronic 
warfare and related defenses. To ensure that transition to the Services 
would be as fast and smooth as development of the weapon itself, DARPA 
stood up a rapid deployment office with the U.S. Navy and Air Force, 
located within the Agency's headquarters, ensuring a seamless and 
speedy leap to operational capability. Test flights in close 
collaboration with the Navy have been completed and the missile system 
is now on track for early operational deployment in fiscal year 2018. 
The LRASM program not only bolstered the fleet through its creation of 
a long-range survivable strike weapon but also demonstrated a rapid 
acquisition model with potential applicability to other urgently needed 
capabilities.
High-Performance RF Arrays
    DARPA's development of gallium nitride (GaN) semiconductors--with 
an explicit goal of rapid transition into military systems--catalyzed 
U.S. development and deployment of the world's most powerful, highest-
performing, farthest-sensing, and strongest-jamming radio frequency 
(RF) arrays. DARPA's foresight to invest in this technology when its 
future value was still uncertain is paying off today by enabling a new 
generation of military systems that can scan space for debris, search 
the distant horizon for incoming missiles, and interrupt adversary 
communications at ranges not possible with conventional electronics.
Cognitive Electronic Warfare
    U.S. military aircraft need protection against new radar 
frequencies and waveforms not in their onboard jamming profile library. 
DARPA has developed a completely new way to speed up the process of 
library updating and the deployment of relevant countermeasures: 
cognitive electronic warfare, in which the on-board system senses 
across the radio spectrum, uses artificial intelligence to learn in 
real time what the adversary's radar is doing, and then immediately 
generates a specific jamming profile to counter it.
    Testing of these systems, developed through DARPA's Adaptive Radar 
Countermeasures (ARC) program, is underway with U.S. Naval Air Systems 
Command on F/A-18 combat aircraft and through the F-35 Joint Program 
Office for Block 4 integration, as well as with the Office of Naval 
Research (ONR) for inclusion in the Next Generation Jammer upgrade. A 
related program, Behavioral Learning for Adaptive Electronic Warfare 
(BLADE), is being leveraged by the U.S. Army's Communications-
Electronics Research, Development and Engineering Center (CERDEC) as 
CERDEC develops requirements for the Army's next-generation Multi-
Function Electronic Warfare program.
Communications Through Jamming
    Our adversaries are not only deploying new radar frequencies and 
waveforms that challenge U.S. jamming capabilities; they are also 
improving their own jammers and their ability to disrupt U.S. military 
communications. To address that threat, DARPA's Communications Under 
Extreme RF Spectrum Conditions (CommEx) program has developed 
innovative technologies that together have resulted in a powerful, 
modular upgrade to Link 16--the military's primary tactical data-
exchange network that among other functions supports air-to-air 
communication in contested environments. The program's adaptive anti-
jam system was recently integrated and tested on Link 16 production 
radios. Some features have been flight-tested against real jamming 
systems, and plans are underway for testing of the full system in 2017.
    In addition, building upon technologies investigated under the 
COMMEX program, the Agency's Computational Leverage Against 
Surveillance Systems (CLASS) program is developing new ways to protect 
U.S. military signals from increasingly sophisticated adversaries. In 
collaboration with CERDEC, DARPA in 2016 conducted TRL-6 testing of 
CLASS in a set of exercises at Ft. Dix, N.J. The technology is also 
being integrated into a new CERDEC project aimed at securing Army 
radios against jamming threats.
Finding Nuclear and Radiological Threats
    Perhaps no domestic security threat today exceeds that of a nuclear 
or radiological (``dirty bomb'') detonation. Current sensors can detect 
high-emitting radiological materials that could signal such mass-terror 
devices, but are too large and expensive to deploy widely to fully 
protect
    an urban area or major transportation hub. DARPA's SIGMA program 
has successfully created high-quality, handheld radiological sensors at 
a fraction the cost of today's devices. SIGMA developed not only that 
hardware but also the software to monitor thousands of those mobile 
detectors in real time--an essential capability to discern the movement 
of nuclear materials before they can be incorporated into a terrorist's 
weapon. In collaboration with officials in the Washington, D.C., 
metropolitan area and the Port Authority of New York and New Jersey, 
DARPA in 2016 tested the devices and networking system at critical 
transportation hubs and on a city-wide scale involving 1,000 detectors, 
and will oversee final testing and transition to appropriate 
authorities for urban deployments in 2017.
Submarine Detect and Track
    Enemy submarines pose a growing asymmetric threat in terms of their 
low cost and consequential growth in numbers. In addition, these 
submarines have trended toward lower acoustic signature levels and have 
grown in lethality. DARPA's Distributed Agile Submarine Hunting (DASH) 
program is working to defuse this threat through the development of 
advanced standoff sensing from unmanned systems. The program has 
already developed two prototype systems that the Navy is supporting 
through continued field trials of this essential technology with a path 
to full program deployment.
Highly Autonomous Unmanned Ship
    The United States in 2016 took its first step towards long-range, 
highly autonomous vehicles for maritime operations when DARPA unveiled 
the technology demonstration vessel it developed and built through the 
Agency's Anti-Submarine Warfare (ASW) Continuous Trail Unmanned Vessel 
(ACTUV) program. The 132-foot ship, christened Sea Hunter, is not 
remotely piloted, but rather is designed to operate over thousands of 
kilometers of open ocean with only sparse supervisory oversight, all 
while adhering to international rules for navigation and collision 
avoidance. These capabilities mean the vessel can patrol large areas at 
a fraction of the cost of a crewed ship and potentially engage in such 
dangerous tasks as submarine tracking and mine clearing without posing 
any risk to Sailors. Sea Hunter began open-water testing off the 
California coast in 2016, under joint leadership of DARPA and ONR. 
Transition to the Navy is anticipated in 2017.
PNT Without GPS
    GPS has revolutionized the all-important ability to know exact 
current location and heading, but the Defense Department (DoD)'s 
growing dependence on it also constitutes a vulnerability in the event 
of a system breakdown or attack. That's why DARPA developed and is now 
testing advanced PNT systems that can take advantage of alternative 
sources to serve as external position fixes, and feature advanced 
inertial measurement units that require fewer fixes while minimizing 
navigational drift. This potentially liberating system is undergoing 
operational testing with the Navy, and DARPA continues to push PNT 
technologies to new horizons with novel algorithms and reconfigurable 
architectures that can be customized to particular mission needs.
Protection from Cyberattacks
    DARPA's Clean-slate design of Resilient, Adaptive, Secure Hosts 
(CRASH) program was a basic research effort that designed new computer 
system components that are highly resistant to cyberattack. The results 
have quickly made their way into both commercial and military 
applications. One university performer on the program started a company 
based on CRASH research, which led to an announcement from HP in 2015 
that its new line of printers would feature this security-enhancing 
software to help prevent those devices from serving as inadvertent 
system portals for hackers.
    Within the Defense Department, the Naval Surface Warfare Center is 
using CRASH technology to protect shipboard control systems from 
cyberattack; CRASH software is also being used by the Defense 
Information Systems Agency and is being incorporated into a number of 
DoD command and control servers. The Department of Homeland Security 
and the Air Force Research Laboratory have also been working together 
to test and evaluate CRASH technology in multiple devices. Each of 
these transitions is contributing to the Nation's cybersecurity by 
taking entire classes of threats off the table.
Cyber Operations
    Plan X gives cyber operators the tools to understand what is 
happening in their complex, obscure, and fast-morphing domain, 
facilitating the planning and execution of their operations as well as 
assessments of their effects--essential to making the increasingly 
important cyber domain a tractable one for military operations. Plan X 
technology is transitioning to U.S. Army Cyber Command and will be used 
by Cyber Protection Teams to support decision makers and defend 
networks at the tactical edge.
Assessment of Information Operations
    Influence operations in the information domain have already proven 
integral to campaigns being waged by the Islamic State of Iraq and 
Syria (ISIS) and Russia and are anticipated to be an increasing part of 
future conflicts. Yet little is known about the elements that 
contribute to successful information campaigns, or how best to counter 
those campaigns. Through its Quantitative Crisis Response (QCR) 
program, DARPA is delivering to operational partners newly developed 
tools that provide information operators the first capability to 
understand on a strategic scale what is happening in the online 
information environment and to predict the impacts of adversaries' 
information operations.
Rapid Diagnosis of Infectious Diseases
    Today's diagnostic tests for infectious diseases can take a week or 
more to provide definitive results from the field--far too long when 
the disease in question is a fast-moving scourge such as Ebola or Zika. 
DARPA's Mobile Analysis Platform is a simple, rugged, handheld, 
battery-operated instrument that rapidly identifies a range of 
infectious diseases and can easily accommodate new modules as needed to 
address novel or unanticipated pathogens. It enables low-cost and 
robust molecular diagnostics within 30-45 minutes in locations without 
traditional laboratories or secure pharmaceutical logistics chains. 
Instant wireless transmission of test results and location data 
produces invaluable real-time epidemiological analyses at the pace of 
outbreaks themselves.
    DARPA conducted testing with the U.S. Marine Corps Warfighting 
Laboratory during the 2016 Rim of the Pacific military exercises and is 
now testing the device with the U.S. Naval Health Research Center and 
the U.S. Military HIV Research Program in the United States and in 
Africa.
Space Situational Awareness
    Space is increasingly congested and contested, with valuable 
satellites and various manmade and natural orbital debris all tracing 
paths above the Earth. The U.S. Space Surveillance Network, operated by 
U.S. Air Force Space Command, is tasked with tracking the hundreds of 
thousands of known objects in Earth orbit to ensure the safety of U.S. 
assets, and is now enjoying the added assistance of the newest DARPA-
developed addition to that network: the Space Surveillance Telescope 
(SST).
    In 2016, SST transitioned from a DARPA-led design and construction 
program to ownership and operation by the U.S. Air Force, which plans 
to operate the telescope in Australia jointly with the Australian 
government. There, SST will provide key space situational awareness 
from an area of the geosynchronous belt that is currently only sparsely 
observed. With its numerous breakthroughs in telescope design and 
camera technology, SST provides unprecedented imaging quality to spot 
small, faint objects across an extraordinarily wide field of view and 
the ability to take thousands of pictures per night. It also boasts 
revolutionary image analysis software that enables much faster 
discovery and tracking of previously unseen or hard-to-find small space 
objects.
                             looking ahead
    As the examples above attest, groundbreaking DARPA technologies are 
getting steadily integrated into a wide array of Defense Department 
systems. I could not be prouder of the positive impact our research and 
development teams are having on our Nation's security today, and will 
continue to have into the foreseeable future.
    But those success stories are the result of work initiated by my 
predecessors. My responsibility today is to make sure that 10 or 20 
years from now, my successors can testify before you and point to an 
even more impressive spectrum of technologies and capabilities that are 
mere dreams for us here today. The seeds of that future are germinating 
in the DARPA portfolio that I now oversee, and I am more than excited 
about the possibilities I see in those programs. They vary enormously, 
spanning in scale from the invisible to the cosmic and in domains from 
the deepest oceans to the open seas to the skies and the heights of 
geosynchronous Earth orbit, 22,000 miles above our planet's surface. 
Indeed there may be only one thing that can be said to be true about 
all of them: Each program at DARPA has a specific technological goal 
that is explicitly not incremental or evolutionary but rather is 
potentially revolutionary and game changing.
    So for the remainder of this testimony I would like to highlight a 
representative sample of those programs from the DARPA portfolio, to 
give you a sense of the technological challenges the Agency is 
tackling, the capabilities those technologies are anticipated to 
enable, and some potential operational applications for those 
capabilities. Throughout, you will note two overarching themes that are 
increasingly relevant to many DARPA programs and that give a strong 
hint about where the future of technology is going. One theme is the 
accelerating maturation of artificial intelligence (AI) technologies 
and, with that, the emergence of increasingly automated or semi-
autonomous systems. This is a cross-cutting theme that is manifesting 
across virtually every tech area and battle domain. The second, related 
theme is the importance of making the interfaces between these powerful 
systems and their human operators as seamless as possible--sometimes to 
the point of developing brain-machine interfaces to facilitate an 
unprecedented degree of human-machine symbiosis. I will expand on these 
themes in closing.
At Sea
            Untethering the Navy from GPS
    The Global Positioning System (GPS) is the predominant means of 
obtaining positioning, navigation, and timing (PNT) information for 
both military and civilian systems and applications. However, the radio 
signals that are the basis for GPS cannot penetrate seawater, thus 
undersea GPS is effectively denied. Among other drawbacks, that means 
submarines must approach the surface to get navigational fixes. The 
Positioning System for Deep Ocean Navigation (POSYDON) program has the 
very challenging but potentially game-changing goal of developing an 
undersea system that provides omnipresent, robust positioning across 
ocean basins. Phases I and II of the program have been focused on 
accurately modeling the necessary signal propagation channels and 
developing the signal waveforms. Phase III will aim to demonstrate a 
complete positioning system.
            Collaborative, Cross-Domain Force Projection at Sea
    By virtue of their shear enormity, ocean domains are challenging to 
surveil and control, offering adversaries with closer access to those 
seas a potentially asymmetric means of projecting power. DARPA's Cross-
Domain Maritime Surveillance and Targeting (CDMaST) aims to undermine 
that advantage by developing novel tactical and strategic architectures 
that take advantage of recent advances in manned and unmanned systems 
and of emerging long-range weapon systems. Building upon research 
across a number of DARPA and external programs, CDMaST will integrate 
and leverage enabling technologies needed for command, control, and 
communication between air, ocean surface, and sub-surface domains to 
create entirely new warfighting capabilities, which in turn will enable 
a menu of surprising new tactics.
            Extending the Advantage of Unmanned Aerial Systems
    Options for obtaining airborne intelligence, surveillance, and 
reconnaissance (ISR) at sea remain frustratingly constrained. Ship- or 
land-launched helicopters are relatively limited in their distance and 
flight time. Fixed-wing manned and unmanned aircraft can fly farther 
and longer but require either aircraft carriers or large, fixed land 
bases with runways as long as a mile or more. Moreover, establishing 
these bases or deploying carriers requires substantial financial, 
diplomatic, and security commitments that are incompatible with today's 
requirements for rapid response. Tern is a DARPA advanced technology 
development program that originally designed--and now is about to 
build--a medium-altitude long-endurance unmanned aircraft system that 
can be launched from and recovered by small ships, providing 
unprecedented open-ocean ISR and strike capabilities.
    Having quickly matured from an experimental DARPA program to a 
joint effort with the Office of Naval Research, Tern is now undergoing 
a detailed design phase, which will be followed by construction of a 
full-scale demonstrator system. Tests will include initial on-land 
testing and subsequent at-sea demonstrations of vertical takeoff and 
landing (involving a test platform with a deck size similar to that of 
a destroyer or other small surface-combat vessel), as well as 
transition to and from horizontal flight.
            On Land
    Bringing High-Resolution Strategic Awareness to the Squad
    Airborne and ground-vehicle-assigned forces today have access to 
astonishingly detailed information about their environs, but dismounted 
infantry squads often lack such situational awareness because the 
relevant technologies are too heavy and cumbersome for individual 
Soldiers and Marines to carry or too difficult to use under demanding 
field conditions.
    DARPA's Squad X Core Technologies (SXCT) program is speeding the 
development of new, lightweight, easily interfaced systems to help 
dismounted Soldiers and Marines more intuitively understand and control 
their complex mission environments. Specific goals include distributed, 
non-line-of-sight sensing and guided-munitions targeting of threats out 
to 0.6 mile (1,000 meters) and providing squad members with real-time 
knowledge of their own and teammates' precise locations in GPS-denied 
environments through seamless collaboration with embedded unmanned air 
and ground systems.
            Bringing Directed Energy to the Fight
    Overcoming a long string of seemingly insurmountable technical 
challenges, DARPA is driving down the size and weight of high-power 
fiber laser arrays for multiple Service applications. This new laser 
technology pioneered by DARPA has demonstrated electrical efficiencies 
of greater than 40 percent and features ultra-high speed beam 
corrections to compensate for atmospheric turbulence and maintain 
precision focus on targets. Through our Endurance program, DARPA is 
demonstrating the laser kill chain for aircraft self-defense 
applications in live-fire testing at ranges in the western United 
States. Later this year the system will be tested for its ability to 
provide automated, high-confidence detection, tracking, and kill of 
incoming missile targets.
In the Air
            Rewriting the Rules for Fixed-Wing Flight
    DARPA is making rapid progress toward achieving one of aviation's 
most coveted prizes: a vertical take-off and landing (VTOL) aircraft 
able to fly significantly faster than today's longstanding VTOL limit 
of 150 knots to 170 knots. Rather than simply tweaking past designs and 
technologies, DARPA's VTOL X-Plane program--which just last month 
transitioned from sub-scale demonstrator stage to initial production of 
a full-scale 12,000-pound aircraft-- integrates entirely novel energy 
distribution and propulsion systems to achieve an anticipated top 
sustained flight speed of 300 knots to 400 knots while retaining 75 
percent hover efficiency and doubling today's cruise lift-to-drag 
ratio.
            Breaking the Mach 5 Technology Barrier
    Systems that operate at hypersonic speeds--five times the speed of 
sound (Mach 5) and beyond--offer the potential for military operations 
from longer ranges with shorter response times and significantly 
enhanced effectiveness compared to current military systems. The 
Hypersonic Air-breathing Weapon Concept (HAWC) program is a joint 
DARPA/U.S. Air Force (USAF) effort that is developing and demonstrating 
critical technologies to enable an affordable air-launched hypersonic 
cruise missile effective against even heavily defended targets. At the 
same time, DARPA's Tactical Boost Glide (TBG) program--also a joint 
DARPA/USAF effort--is developing technologies to enable air-launched, 
tactical-range hypersonic boost glide systems. The program is 
exploiting the technical knowledge and lessons derived from development 
and flight testing of previous boost glide systems, including the 
Hypersonic Technology Vehicle 2 (HTV-2).
            Investigating Small Spaces Autonomously
    DARPA launched its Fast, Lightweight Autonomy (FLA) program in 
response to an anticipated need for small (quadcopter-sized), fast, 
unmanned aerial vehicles able to navigate autonomously through 
cluttered urban environments. The program is developing a new class of 
algorithms for minimalistic high-speed navigation and has been testing 
the software and integrated sensors in small UAVs that fly at speeds up 
to 20 meters/second with no communication to an operator and without 
GPS waypoints.
In Space
            Enabling Rapid Access to Space
    Space launch systems today are exceedingly expensive and typically 
must be procured years in advance of launch. In an era of proliferating 
foreign threats to U.S. air and space assets, routine, affordable and 
responsive access to space is essential to enabling new military space 
capabilities and rapid reconstitution of space systems during crisis. 
To close this critical capabilities gap, DARPA's Experimental 
Spaceplane XS-1 program is developing the technologies needed to 
fabricate and fly a business-jet-sized, reusable aircraft to the edge 
of space. The program recently entered a final design and development 
stage to create a craft that can launch a spacecraft to low Earth orbit 
at a cost one-tenth the cost of today's equivalent launch systems--and 
be able to do so ten times in ten days, demonstrating aircraft-like 
operability, cost efficiency and reliability.
            Achieving Robotic Repairs on Orbit
    Hundreds of military, government and commercial satellites reside 
today in geosynchronous Earth orbit (GEO) some 22,000 miles (36,000 
kilometers) above the Earth--a perch ideal for providing 
communications, and meteorology services, but one so remote as to 
preclude inspection and diagnosis of malfunctioning components, much 
less the provision of upgrades or repairs. With no prospects for 
assistance once in orbit, satellites destined for GEO today are loaded 
with backup systems and as much fuel as can be accommodated, adding to 
their complexity, weight and cost. DARPA's Robotic Servicing of 
Geosynchronous Satellites (RSGS) program is developing technologies to 
enable cooperative inspection and servicing in GEO and intends to 
demonstrate those technologies--many of which have been created in a 
previous DARPA program and are effectively flight-ready--on orbit. The 
system is to include a DARPA-developed modular toolkit, including 
hardware and software, joined to a privately developed spacecraft to 
create a commercially owned and operated robotic servicing vehicle 
(RSV) that could make house calls in space.
The Digital Domain
            Letting Sleeping Sensors Lie
    State-of-the-art military sensors rely on ``active electronics'' to 
detect vibration, light, sound or other signals for situational 
awareness and to inform tactical planning and action. That means the 
sensors constantly consume power, with much of that power spent 
processing what often turns out to be irrelevant data. This power 
consumption limits sensors' useful lifetimes to a few weeks or months 
with even the best batteries and has slowed the development of new 
sensor technologies and capabilities. Moreover, the chronic need to 
service or redeploy power-depleted sensors is costly and time-consuming 
and increases warfighter exposure to danger. DARPA's Near Zero Power RF 
and Sensor Operations (N-ZERO) program is developing the technological 
foundation for persistent, event-driven sensing capabilities in which 
the sensor can remain dormant, with near-zero power consumption, until 
awakened by a relevant external trigger or stimulus, such as the 
acoustic signature of a particular vehicle type or radio signatures of 
specific communications protocols. The program could extend the 
lifetime of remotely deployed communications and environmental 
sensors--also known as unattended ground sensors (UGS)--from weeks or 
months to years.
            Making the Most of a Crowded Spectrum
    Across the Nation and around the world, the wireless revolution is 
fueling a voracious demand for access to the radio frequency (RF) 
spectrum. In the civilian sector, consumer devices from smartphones to 
wearable fitness recorders to smart kitchen appliances are competing 
for bandwidth. In the military there is growing reliance on unmanned 
platforms, from underwater sensors to satellites, and a push for 
broadband connectivity for every member of every Service. Managing this 
increasing demand, while combating what appears to be a looming 
scarcity of RF spectrum is a serious challenge.
    Today's approach of rationing access to exclusively licensed bands 
is not adaptive to the dynamics of supply and demand and unnecessarily 
creates conditions of scarcity. DARPA's Spectrum Collaboration 
Challenge (SC2), which will culminate in a final event in 2019, asks 
competing innovators to reimagine spectrum access strategies and 
develop a new wireless paradigm in which radio networks endowed with 
artificial intelligence will autonomously collaborate and reason about 
how to share the RF spectrum, thereby avoiding interference and jointly 
exploiting opportunities to achieve the most efficient use of the 
available spectrum.
            Getting Smart Machines to Tell Not Just What, But Why
    Dramatic recent successes in artificial intelligence and machine 
learning promise to produce autonomous systems that will perceive, 
learn, decide, and act largely on their own. The usefulness of these 
systems is limited, however, by their current inability to explain 
their sometimes surprising or even flat-out counterproductive decisions 
to human users--a shortcoming that undermines human efforts to program 
essential correctives. DARPA's Explainable AI program is developing a 
suite of machine learning techniques to help human users understand, 
effectively manage, and appropriately trust the emerging generation of 
artificially intelligent partners, with which the Department of Defense 
in particular hopes to increasingly collaborate. The program's 
anticipated final product will be a toolkit library consisting of 
machine learning and human-computer interface software modules that 
could be used to develop future explainable AI systems and would be 
made available for further refinement and transition into defense or 
commercial applications.
            Aiming for the Unhackable
    Today's world is a network of interconnected, embedded computer 
systems with components ranging in size and complexity from large 
supervisory control and data acquisition systems that manage physical 
infrastructure such as electrical grids and dams, to smaller but still 
critical systems inside airplanes, satellites, medical devices, 
computer printers and routers, and handheld devices such as cell phones 
and radios. Researchers and hackers have shown that these kinds of 
networked embedded systems are vulnerable to remote attack, and such 
attacks can cause not just data loss or but significant physical, 
economic, and strategic damage. DARPA's HACMS program is creating 
technology for the construction of safe and secure cyber-physical 
systems. Taking a fundamentally different approach from the inadequate 
methods used today by the software community, the program has adopted a 
clean-slate, formal methods-based approach to enable semi-automated 
code synthesis from executable specifications. HACMS has already 
transitioned some of its technology to both the defense and commercial 
communities.
            Speeding the Search for Cyber Threats
    Recognizing that no cyber protective system will ever be completely 
effective, and that the Defense Department in particular demands the 
highest level of cyber assurance, DARPA is heavily focused on the need 
to develop data-driven cyber-hunting tools to detect and characterize 
cyber threats. The challenge for the DoD is great in part because the 
Department generates orders of magnitude more cyber-relevant data than 
the total storage available for cyber scanning and security purposes, 
only a fraction of which is actually threat related. DARPA's Cyber-
Hunting at Scale (CHASE) program is developing novel algorithms to 
dynamically collect data from mission-critical parts of the DoD 
network, hunt for threats, and disseminate protective measures.
            Harnessing Math to Unify Composable Systems
    DARPA in recent years has focused heavily on the need to 
disaggregate complex military systems and to evolve a portfolio of 
``system-of-systems'' architectures to better manage national security 
applications and improve the survivability and mission success of 
military platforms. A core remaining challenge, however, has been the 
lack of sophisticated tools to model and systematically design complex 
systems of systems. DARPA's Complex Adaptive System Composition And 
Design Environment (CASCADE) program is addressing this shortcoming by 
developing novel mathematical foundations that can provide a unified 
view of system behavior and, ultimately, a formal language and tool kit 
for complex adaptive-system composition and design.
            Making Antenna Arrays More Modular
    Today's radio frequency systems use antenna arrays to provide 
unique capabilities, such as multiple beam forming and electronic 
steering, which are important for a wide variety of applications such 
as communications, signal intelligence (SIGINT), radar, and electronic 
warfare. However, wider use of arrays has been limited by lengthy 
system development times and the inability to upgrade already-fielded 
capabilities--problems exacerbated by the fact that military 
electronics have evolved at a slower cadence than those in the 
commercial sector. In particular, the performance gap is widening 
between the radio frequency capabilities of fielded military systems 
and the continuously improving digital electronics surrounding those 
systems. DARPA's Arrays at Commercial Timescales (ACT) program aims to 
shorten design cycles and in-field updates and push past the 
traditional barriers that lead to 10-year array development cycles, 20- 
to 30-year static life cycles and costly service-life extension 
programs. Specifically, as an alternative to traditional undertakings 
focused on the development of large, monolithic array systems, ACT is 
developing a digitally interconnectable building block.
The Biological Frontier
            Cultivating Complex Microbial Communities
    Synthetic biology--in which biological components are engineered 
into systems with applications ranging from pharmaceutical and fuel 
production to chemical decontamination to the organic ``growth'' of new 
materials with novel structural, electronic, or optical properties--is 
hobbled today by the need to pamper relevant microorganisms in highly 
protected laboratory environments. DARPA's Biological Robustness in 
Complex Settings (BRICS) program is developing the fundamental 
understanding and component technologies needed to engineer biosystems 
that can function reliably in less constrained environmental 
conditions. In a related effort, DARPA's Engineered Living Materials 
(ELM) program is developing biologically based materials that combine 
the structural properties of traditional building materials with 
attributes of living systems, including the ability to rapidly grow, 
self-repair, and adapt to the environment. Such ``living materials'' 
represent a new opportunity to leverage engineered biology to solve 
problems associated with the construction and maintenance of the built 
environment, as well as new capabilities to craft smart infrastructure 
that dynamically responds to its surroundings. Initial program 
objectives are to develop design tools and methods that enable the 
production of structural materials that can reproduce, self-organize, 
and self-heal.
            Building Trust with Biological Brakes
    DARPA recognizes that efforts to develop synthetic biological 
systems able to serve the field's large potential spectrum of 
commercial and national security applications will not bear fruit 
without concomitant assurances that such systems are safe. Its Safe 
Genes program aims to deliver novel biological control capabilities 
that can mitigate the risk of unintentional consequences or even 
intentional misuse of these technologies, and thereby facilitate the 
pursuit of positive advanced genome editing applications.
            Outpacing Infectious Disease
    Vaccine production today is a slow and arduous process, with even 
the fastest production modes for fast-evolving threats such as 
influenza taking a full year to implement. Indeed, the primary reason 
that pandemic threats in recent years have not evolved into even larger 
global disasters is because the world was fortunate enough for those 
strains to have burned out naturally, with vaccines arriving only after 
mortality had peaked. Recognizing that such good fortune is not likely 
to last, and that large-scale infectious disease or toxin-related 
disasters--whether natural or human-produced--can quickly lead to 
global destabilization and a threat to U.S. national security, DARPA 
launched its ADEPT program. ADEPT has already produced a ``diagnostics 
on demand'' system that provides rapid, specific, distributed 
diagnostics for medical decision-making and accurate disease-tracking, 
a key to properly focusing limited resources at the critical early 
stages of a pandemic and a potential game-changer for battlefield 
medics. The program is also developing new methods for manufacturing 
vaccines that can decrease production time from years to weeks while 
increasing potency, and new methods to impart immediate, temporary 
immunity to a population via fast-acting, genetically programmed 
antibodies.
            Probing the Potential of Human-Machine Interfaces
    Inspired in part by the specific healthcare needs of injured 
warfighters and veterans, DARPA is pioneering the nascent but fast-
moving field of neurotechnology, with goals as diverse as the creation 
of advanced prosthetic limbs to the restoration of an injured brain's 
ability to create and retrieve memories. Over a period of just a 
handful of years, DARPA's Revolutionizing Prosthetics program created 
and helped bring to market a Food and Drug Administration-approved 
modular prosthetic arm that weighs no more than a standard adult arm 
and offers users an unprecedented range of motion. Recent advances 
through that program have added a capacity for users to ``feel'' what 
their mechanical hand is touching--a capacity now being furthered under 
DARPA's Hand Proprioception and Touch Interfaces (HAPTIX) program--and 
are fueling further improvements, to culminate in complete control of 
the arm via thought alone. Under the Agency's Systems-Based 
Neurotechnology for Emerging Therapies (SUBNETS) and Restoring Active 
Memory (RAM) programs, DARPA researchers are learning how 
electrophysiological firing patterns in the brain can be translated 
into digital ones and zeros and then interpreted by computer systems to 
diagnose and potentially correct neuropsychiatric or memory deficit 
problems, and perhaps even enhance normal memory and accelerate skills 
training.
         cross-cutting technologies and the longer-term future
    As the above highlights reveal, two powerful, overarching 
technology trends are fueling many of DARPA's fastest-advancing 
programs. First, artificial intelligence and machine-learning 
technologies are serving as an accelerator and force multiplier in 
diverse areas of research, from information processing to electronics 
to neuroscience. These technologies are helping researchers overcome a 
problem few anticipated ever having to worry about: an overabundance of 
data. Sensor data and other intelligence streams from space, airborne 
surveillance, and ground and maritime systems have flooded analysts 
with more information than they can properly parse--as has enormous 
volumes of data collected from probes of the human brain--raising a 
risk of perceiving statistical associations that are not meaningful and 
potentially misleading. Ever more advanced AI and machine learning 
algorithms are helping researchers sort through and make sense of this 
embarrassment of riches. And over the next few years, it is reasonable 
to expect that AI-enabled data-processing and modeling capabilities 
will harness this unruly data glut and give rise to stunning new 
capabilities in a range of domains, including that of automated and 
semi-autonomous systems. These advances can be expected to provide new 
tactical and strategic options for national security but also new 
challenges--both in terms of defending against adversaries who use 
these powers to create sophisticated threats, and in terms of our own 
responsibility to retain adequate technical and policy controls over 
how these technologies will be used.
    At the same time, a second set of technologies is having an 
outsized impact across multiple research disciplines: a blend of 
biocompatible electrode arrays and sophisticated software that is 
making the human-machine interface ever more seamless. This 
increasingly intuitive linkage between operators and their devices is 
introducing to the national security matrix a mix of novel 
opportunities, ranging from therapies for veterans with brain injuries, 
to regimens for accelerated memory formation, learning, and training 
for warfighters, to an array of digital systems that can be accessed 
and controlled at the speed of thought. DARPA has been clear in its 
views of this opportunity space for some time, recognizing that the 
future is not going to be about the advanced technologies we create but 
about interaction with, and integration of, those technologies with 
their human operators.
    Building in part upon these powerful, cross-cutting technologies--
as well as upon insights into where the next major breakthroughs in 
science and technology are likely to emerge, and what kinds of national 
security challenges the United States is likely to face in the decades 
ahead-- DARPA periodically sketches out longer-term initiatives that 
the Agency may choose to pursue. Because these ideas focus on distant 
time horizons, they are by definition extremely ambitious, but they 
also have the potential to radically bend the arc of technology 
development for the military Services and, in doing so, provide a range 
of tactical and strategic options hardly imaginable today. To complete 
my overview here of the kinds of work DARPA is doing or is considering, 
I would like to highlight four of the current crop of such initiatives. 
None of these four has been fully mapped out, approved, or funded 
internally as yet, but they give a taste of the kinds of futures we are 
envisioning--and how we imagine addressing those futures by applying 
DARPA's most creative energies.
Enabling Kinetic Ground Ops via Air-Space Integration
    Recent advances in the development of small satellites, low-cost 
launch capabilities, novel space-based tactical ISR sensors, and 
weapons systems that can detect, track, and strike large numbers of 
targets with short lead times are enabling a new degree of air-space 
integration in support of ground operations. DARPA is studying 
approaches to catalyze the operationalization of such a large-scale, 
cross-domain system of systems by developing the technology needed to 
fill key remaining gaps, such as architectures and algorithms for 
seamless integration of communication, data fusion, and command and 
control. The Agency is already accelerating the development of relevant 
launch systems and satellite architectures.
Into the Megacity Gray Zone
    U.S. assault training and equipment decisions have for years 
focused on counter-insurgency wars in open, desert terrain. The ability 
to win battles in the decades ahead, however, will increasingly depend 
on high-quality ISR, targeting, maneuverability, and strike 
capabilities in densely populated urban centers, and will be 
complicated by adversaries' use of gray zone tactics that propagate 
ambiguity about the identify of those adversaries and their actual 
objectives. DARPA is studying possibilities for a system of manned and 
unmanned systems that together could provide a tenfold improvement in 
the ability of U.S. small military units to move, shoot, communicate, 
and survive in megacities while pursuing gray zone objectives.
Win at Cyber
    U.S. warfighters and national security generally depend more than 
ever on cyber information advantage, but cyber security has not kept up 
with cyber dependence. Building on recent significant advances within 
the Agency in the domains of both hardware and software security, DARPA 
is radically rethinking current security approaches in order to harden 
systems against cyber attack, operate through cyber attacks, and, when 
necessary, act and win in the cyber domain.
Eliminate the Threat of Weapons of Mass Terror
    Chemical and bio-production facilities are now common in many 
countries that were incapable of supporting such technologies just 10 
years ago. Concomitantly, the barrier to entry for weapons 
fabrication--from homemade explosives to do-it-yourself biotechnology--
continues to decrease with the proliferation of instructions and 
designs on the Internet. These trends, combined with the potential of 
terrorist access to radiologic materials for use in dirty bombs or even 
to nuclear weapons, present a diverse and challenging array of threats 
against which to defend military and civilian populations. The most 
promising approach to eliminating the threat of weapons of mass terror 
is to create networked sensor and information systems that signal the 
presence of such threats or, better still, that alert authorities to 
the transport or aggregation of relevant components. DARPA is studying 
the possibility of creating a fully networked, continuous monitoring 
system that functions for the full range of chemical, radiological, and 
biological weapons of mass terror. Challenges include the development 
of miniaturized, networked, multi-functional sensors able to detect 
parts-per-million levels of chemical warfare agents or precursors and 
extremely low numbers of relevant biological organisms, with automated 
sample preparation and with false negative and false positive rates 
equal to or better than those recently achieved by DARPA for city-
scale, dynamic radiological sensing.
                     maintaining the darpa culture
    DARPA office leaders and program managers come to work every day 
inspired and visibly eager to explore the scores of exciting frontiers 
that my testimony today has only touched upon. I see this enthusiasm 
every day in these individuals' offices, in the hallways, and in the 
elevators. The DARPA model for maintaining this remarkable degree of 
energy and reach has been the focus of many analyses, and many of the 
key elements are well understood. Some are structural: by design, for 
example, program managers come to DARPA with an open-ended invitation 
to move their field of expertise to an entirely new level of 
achievement, but they are invited to DARPA for well-defined stints of 
just three to 4 years, creating a powerfully paired sense of 
opportunity and urgency. Some of the Agency's keys to success are more 
cultural than structural, such as the common understanding that risk is 
not our enemy but our friend. It is not that DARPA is attracted to 
risk, it is that risk is going to be part and parcel of any effort that 
seeks to truly break radically new ground. So we take risks, and we 
manage those risks, and when risk appears not to be nearby we ask 
ourselves why not, and whether we need to be grasping for something 
higher and harder. Last but by no means least, DARPA's success is in 
large part the result of trusting leaders in Congress and across all of 
Government who have agreed to give the Agency the freedom to pursue 
DARPA-worthy goals.
                               conclusion
    From DARPA's perspective, the technological future is enormously 
attractive, bright with opportunities and if also fraught with 
unanticipated risks. For nearly 60 years, the men and women of DARPA 
have taken very seriously their unique mission to serve the Nation by 
preventing--and when necessary fomenting--technological surprise. I can 
assure you that from my perspective in the Director's office, DARPA is 
stronger and more committed to that mission than ever.
    I look forward to working with the members of this subcommittee and 
others in the Legislative and Executive branches to ensure that the 
United States maintains its historic lead in the development and 
application of powerful technologies, and to their safe and responsible 
application in support of a more stable, secure, and sustainable world.

    Senator Cochran. Thank you very much, Dr. Walker. We 
appreciate your comments.
    I think because we have a vote that is going on now over on 
the floor of the Senate, I am going to recognize Senator Tester 
for any comments he would like to make. And then we will take a 
little, brief recess while we go over to the floor and vote and 
come back. Is that all right with the other members of the 
committee?
    Senator Tester. Thank you, Mr. Chairman.

                             SMALL BUSINESS

    And I want to thank the witnesses for your testimony and 
work.
    I want to bring this a little closer to home. I mentioned 
some smaller companies in Montana. They are doing some pretty 
cool and innovative stuff. These are small companies. These are 
not less than 500; these are less than 50 employees. But 
nonetheless, they are doing some good stuff. One of them is a 
backpack company called Mystery Ranch that has done just some 
pretty good stuff.
    When I talked to them here a while back, they said they 
have a problem with the Rapid Innovation Fund. It takes too 
long, too much paperwork, too bulky, too different, and too 
bureaucratic.
    Is the Department doing anything to expedite to ensure that 
small businesses can get a piece of the apple?
    Dr. Walker. Senator Tester, yes.
    One of the things we have done at DARPA, this has been the 
last 6 months is--and it applies to the company you talked 
about, S2, I think, in our Microsystems Technology Office--we 
have put out a Broad Agency Announcement. We do Broad Agency 
Announcements all the time, but we set this one up specifically 
for commercial companies, small companies.
    Senator Tester. Yes.
    Dr. Walker. And it is seven pages long, which is short in 
length. It is actually written in plain English. And it is 
really focused at companies you are talking about.
    Senator Tester. Right.
    Dr. Walker. And the way we are able to do that is as a non-
FAR based contracting mechanism. We are using other transaction 
authorities.
    Senator Tester. And you have enough flexibility? You do not 
need this committee to do anything to enable you to be able to 
touch those smaller companies in a realistic way?
    Dr. Walker. I think if companies like S2 were to look at 
that BAA (Broad Agency Announcement), they could work with us.

                           UNIVERSITY SYSTEM

    Senator Tester. Okay.
    One of the areas that I think is really important is 
collaborating with the university system, whichever State you 
are dealing with. And Senator Daines and I are particularly 
proud of the university system we have in Montana and the 
different units of that. They are also doing some good stuff. I 
have a couple of questions around that.
    Number one, where do you see the future of innovation as it 
applies to universities in partnership with you? And that is to 
anybody who wants to answer it.
    Mr. Work. Well, sir, all of our labs--we have 63 labs and 
centers across 22 States and the District of Columbia--all of 
them have relationships with universities and academia.
    The U.S. Army Research Laboratory just started this new 
program called Open Campus and it is designed to have an SMT 
ecosystem which goes directly into academia and allows a free 
flow of ideas.
    So I am sure Steve Walker might want to say something, but 
as of right now, we have a very vibrant connection with 
academia.
    Senator Tester. Good.
    Dr. Walker, do you have anything else?
    Dr. Walker. I would second that.
    And I would just like to add that DARPA has made an effort 
over the last 3 years to get out to universities we would not 
typically work with.
    Senator Tester. Okay.
    Dr. Walker. We have been to 35 different States in the last 
3 years.

                                 CYBER

    Senator Tester. Okay. I want to talk very briefly about 
cyber and I do not want to get into any classified areas. So 
you can check out and we can do it offline somewhere else if 
need be.
    But there has been conversation for a while now talking 
about how, and you alluded to it in your comments, about how 
our competitors, our enemies, are putting a lot of value on 
this, and they are making gains.
    Moving forward, do you have the tools you need at your 
accessibility to be able to maintain that advantage that you 
talked about that we currently have that may be dissipating 
over time if they continue to make it a priority?
    Dr. Walker. Sir, I think we do have the tools.
    One of the things, actually, the chairman mentioned in his 
opening comments, was we ran a Grand Challenge last summer that 
looked for the first time at applying artificial intelligence 
to the cybersecurity problem. Very successfully had the best 
hackers in the world develop machines that can actually protect 
the network and do it in minutes versus days, months, years.
    So we are learning from that experience, and I think the 
future will see less people and more machines helping us 
provide that cybersecurity. And we are making progress and that 
work is transitioning to Government as well as the commercial 
sector.
    Senator Tester [presiding]. Thank you.
    I am out of time and I think that we will call on my fellow 
Senator from Montana, Senator Daines.

                         INNOVATIVE INVESTMENTS

    Senator Daines. Thank you, Senator Tester.
    And thanks for appearing before the committee today.
    I am grateful that since World War I, we have maintained a 
decisive advantage over adversaries through innovation, 
ingenuity, and hard work.
    I am also glad to see over the past 100 days the Trump 
Administration is making good progress in cutting through the 
bureaucracy to make our country strong.
    The fiscal year 2017 Defense Appropriations is moving 
forward to make strong investments in defense innovation to 
keep our country safe. One of those investments certainly is a 
$93 million appropriation to expedite the replacement of the 
Vietnam-era UH-1N's that guard our ballistic missile fields. 
That is the $75 million increase to President Obama's 2017 
budget request that in March, Secretary Mattis acknowledged. 
And I quote, he said, ``It is time for the Huey to go.'' So let 
us get it done now.
    Two weeks ago, the Air Force released another draft 
solicitation for proposals to replace the UH-1N. Meanwhile, DoD 
has aircraft in the inventory that can fulfill this mission 
today.
    My question, Secretary Work, can you assure me that the Air 
Force will comply with congressional intent? And that this 
opportunity will not be lost to a large bureaucracy, I guess we 
might call it institutional inertia or plain apathy, in the 
acquisition community?
    Mr. Work. Yes, Sir.
    And I can assure you that this is on Secretary Mattis' 
radar. When we briefed him on the way forward, he said, ``Not 
good enough.'' He said, ``I want you to come back and ensure 
that we can meet the timelines.'' He does not want any further 
delay.
    The issue was when we went out with an open solicitation, 
it turned out we thought the solicitation would allow us to 
just pick among competitors on the market; that turned out not 
to be the case. Each of them missed requirements in some way, 
shape, or form.
    That is why the Air Force sent out another RFP, but the 
Secretary has said, ``I understand the urgency that is applied 
on this by this body and other members in the chamber.'' And he 
told us make sure that we stay on track.
    I do not have anything specifically for you, Senator 
Daines, right now but I can assure you that the Secretary is, 
well, following this very close.

                    PHYSICAL SECURITY SYSTEMS/CYBER

    Senator Daines. Usually when a four-star general starts 
paying attention there from the Marine Corps, something is 
going to get done. So I appreciate his leadership and yours as 
well, Secretary Work. Thank you.
    Secretary Work, you have used back-up cameras and lane 
change sensors in modern cars as an analogy for the 
technologies that military commanders use to maintain awareness 
for their operating environment. But as you know, every 
electronic device connected to a network presents a target for 
cyber attacks.
    I recently learned about a Rapid Innovation Fund contract 
for a digital, acoustic sensor that can simultaneously detect 
movement in the air, on the ground, or below ground in any 
weather condition. This single system can detect unauthorized 
access by drones, trooper vehicle movement, or tunneling in a 
variety of applications while also minimizing access points for 
adversaries.
    Secretary Work, as the Department modernizes its aging 
infrastructure, how is it improving its physical security 
systems to defend against these 21st century threats?
    Mr. Work. One way we are doing it, Senator Daines, is we 
have been in the NDAA (National Defense Authorization Act), we 
will be elevating Cyber Command to a full Combat and Command.
    We are on track to have all of our cyber mission teams 
fully operationally capable by September 2018. So on that side, 
we are putting together the structure to be able to watch our 
networks and also to prepare tools that our national command 
authority can use if necessary.
    Steve Walker talked about other issues we are doing with 
technology. We have concluded that this is an area where we 
will not be able to solve with people. There just are not 
enough people to defend our networks against all of the attack 
surfaces that we have.
    So in this case, I think we will be, we are spending a lot 
of time trying to figure out how to use artificial intelligence 
and learning machines to push back. Defense of our networks is 
our top priority and I can assure you that we are putting a lot 
of resources towards that problem.

                      BARREL TECHNOLOGY/COMPOSITES

    Senator Daines. Senator Tester brought up Mystery Ranch, 
the packs and what they are doing from an innovative viewpoint 
in helping develop superior technologies, and lightening the 
load of what our troops carry in the field.
    Similarly, I am pleased to see the Defense Appropriations 
bill also makes important investments in composite barrel 
research. Anyone who has ever fired a medium caliber machinegun 
at a rapid rate understands how hot a steel barrel can get in a 
very short period of time.
    I do not fire rapid fire machineguns while I am out 
hunting, but even my bolt action rifle, I now have a composite 
barrel. And just what it does here in terms of tightening up 
the groupings when the barrel heats up is an amazing 
breakthrough in technology. It affects accuracy. It affects 
longevity. It affects utility in the battlefield when it 
matters the most and lightens the load.
    I am proud to say that Montana is a leader in this area of 
research, in fact. Up in Columbia Falls we have a manufacturer 
that does just this.
    You are a former Marine Artillery Officer. You understand 
the benefits that composite barrel technology has to offer. I 
love the lightness, how much it lightens the load, but very 
impressed with how you keep improved accuracy and tighter 
groupings after multiple fires through the barrel.
    Looking ahead, how can DOD expand this technology across 
its arsenal?
    Dr. Work. Well, Senator, I would like to ask Dr. Roper to 
talk about this because he has looked at it.
    But I would like to correct the record. I am a Marine. 
There are no former Marines, Senator.
    [Laughter.]
    Senator Daines. My father has said that to me several times 
that he is always a Marine in the present tense. My apologies, 
Secretary Work.
    Dr. Roper. Senator, you are precisely right. Composites are 
hugely applicable across a variety of our military systems.
    And what we are really doing in our Office, and we are not 
alone in this, is we are taking a look at three dimensionally 
strong structures that are not really being developed currently 
in the commercial sector. Most of the structures that are being 
developed for yachts are made out of composites that are strong 
in two dimensions.
    What we found is a lot of companies are able to use their 
commercially-based technology development tools to make 
structures like barrels or composite wrappers for existing 
vehicles that are both strong but lighter. And that is a 
technology we continue looking at.
    Keeping forces on the ground, maneuvering as light as 
possible is going to make them as lethal as possible. So the 
load they carry is first and foremost in our minds.
    Senator Daines. I like that byline ``light and lethal.'' I 
like it. Thanks very much.
    Senator Cochran [presiding]. Senator Reed.

                        ROLE OF DOD LABORATORIES

    Senator Reed. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for your service and for your 
testimony here today.
    One area I would like to get all your comments on is the 
role of the Department of Defense Laboratories in the effort, 
and I know you all work with them.
    And perhaps, Secretary Work, you might comment. I know you 
have been up to NUWC and other places. Could you give us a 
notion of how this works?
    Mr. Work. Yes, Sir. I would be happy to.
    I would put the innovation record of the Department of 
Defense since 1947 against any company in the United States and 
in the world. That devolves directly from our Labs, 63 labs and 
centers across 22 States and the District of Columbia. We 
employ 46 percent of all scientists and engineers that the 
Federal Government employs. It is almost 100,000 as of December 
2015. We have enormous collaborations.
    And even though there is a lot of dual technology, Senator 
Reed, that we are tracking, no one in the commercial is going 
to do an active protection system for our tanks and for our 
armored vehicles. That is going to be our Labs that do that. 
They are tremendous engineers and tremendous assets to the 
United States.
    So even though we focus on the dual technology and we are 
reaching out to the commercial side, I am glad you brought this 
up because this is a national treasure. And I think both of 
these gentlemen can attest to that.
    Senator Reed. Dr. Roper, you might make comments on how you 
use them.
    Dr. Roper. Yes, Senator Reed.
    I find the Labs are at their best when they are doing 
prototyping, when they are building hardware and software and 
trying to get that first article out in the field to prove that 
it can work before we go to industry and decide to buy it in 
bulk.
    Now, to get the most out of that prototyping, it is 
important that we make sure that Lab-developed technology can 
be transitioned to the subsequent industry partner.
    An example of this, we have a hypervelocity projectile 
program, trying to take artillery to the next generation. The 
first articles were built in Government laboratories. They have 
since been transitioned to industry. So it gets industry out of 
the starting blocks faster and keeps our scientists and 
engineers on the cutting edge.
    Senator Reed. Thank you.
    And Dr. Walker, please.
    Dr. Walker. Yes, Senator Reed.
    We work with the Labs a lot. We are working with Newark on 
several projects, none of which I can talk about here. We are 
working with Air Force Research Lab on hypersonics in a big 
way. It is a 50/50 cost share program. And we just went with 
stay ward to help us with our Swarm Challenge that we just 
conducted about 2 weeks ago. They did the whole thing for us.
    I will just say I started my career at AFRL (Air Force 
Research Laboratory), so I am big believer in the laboratory.

                         MILITARY CONSTRUCTION

    Senator Reed. Thank you.
    One of the incongruities here is that as I go to the 
laboratories, not just NUWC, they really need MilCon dollars 
because a lot of their facilities are, shall we say, aging, to 
be polite. Any advice, Secretary Work, about that?
    I know that is the province of the MilCon VA Committee, but 
sometimes my sense is because of other priorities in the 
Department of Defense that it gets pushed down.
    Mr. Work. Senator Reed, 5 years under the Budget Control 
Act and the BBA's have really caused us to make hard choices on 
what to maintain and the priorities we have to address.
    So generally, readiness is always at the top as well as 
production of systems. And unfortunately, facilities have 
suffered without question. We really applaud the Administration 
saying we need to add more money to Defense. And one of the 
first places you will see in fiscal year 2018, you will see 
when we drop the budget, we are putting more money into 
facilities.
    I will take this for the record and get back to you on 
whether there is any particular lab.
    [The information follows:]

    In the President's budget for fiscal year 2018, the Department 
committed approximately $38 million for an Electronics Science and 
Technology Laboratory for the Naval Research Laboratory (NRL). The 
MILCON dollars will allow NRL to renovate the Electronics Science and 
Technology Laboratory to restore its functionality while providing 
modern and reliable facilities for the execution of electronics science 
and technology research. In addition, the Air Force Research Laboratory 
was authorized $75 million in fiscal year 2017 MILCON for an Advanced 
Munitions Technology Complex to support research and development of 
sub-scale high speed munitions requiring advanced energetics containing 
nano and conventional materials.

    Senator Reed. Thank you.
    Mr. Work. But we are looking at this hard and we understand 
the problem, Senator.
    Senator Reed. Thank you very much.
    And just a final point, you are right, Dr. Roper. 
Composites come out of the yachting industry, so Bristol, Rhode 
Island, is probably the place you should be visiting for all 
your insights into composites.
    Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Shelby.

                           TECHNOLOGICAL EDGE

    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    We have talked about this before here that you can go back 
to 1940 and you can remember where the French relied on the 
Maginot Line. Spend billions and billions of dollars for this 
First World War-type stuff. And it took the Germans just a few 
weeks to just walk around it, or drive around it, or got their 
tanks around it. So we cannot rely on, Dr. Roper as you 
mentioned, yesterday's weapons.
    We all know that the nation that has the technological 
advantage has a great advantage. And we have had that for a 
long time. You referenced that. All of you did.
    Now the question is there is a lot of competition out there 
now. Not just Russia, but China and others. We have a large 
Navy. Not large enough. Not enough ships, we know that. Do we 
not, Senator?
    Senator Collins. We do.
    Senator Shelby. But on the other hand, you can bring these 
weapons, these supersonic anti-ship missiles could level the 
playing field if we do not have a defense against that kind of 
thing.
    Is that right, Dr. Roper?
    Dr. Roper. Senator, you are absolutely right that whoever 
has the technological edge is going to have a major advantage 
on the battlefield.
    And as you point out, we are losing the era where the U.S. 
has technological exclusivity. The technologies that are around 
us today are going to be available to anyone.
    Senator Shelby. No technological hegemony right now, is 
there?
    Dr. Roper. And it is eroding quickly as countries 
modernize.
    We see a lot of promise, though. Just because everyone has 
the same technologies does not mean that they can use them as 
proficiently.
    And so a lot of the investments that we are making are 
trying to take systems that are used in a very predictable way. 
An anti-ship missile is presuming that we are going to use a 
ship in a predictable way. We are trying to put new 
technologies on top of them so that they can do new missions, 
new roles that are surprising and unexpected.
    And even though the other side, the enemy may have the same 
technology, if we have the element of surprise, then we believe 
we can win.

                                 CYBER

    Senator Shelby. Always. Let us talk about cyber.
    We know that is a huge challenge for all of us, for 
business too and so forth. And I do not believe we have our 
hands around that yet. It is an ongoing deal.
    In your research and development, that has to be one of the 
high priorities as far as national security is concerned. Is 
it?
    Dr. Roper. It is for us, Senator. As you know, if our 
industry base is not able to keep its secrets from being 
stolen, then we are just shooting ourselves in the foot.
    We have a lot of work, a lot of focus in cyber. There is 
very little that we can discuss because once your opponent 
knows your approach to defend, they simply run around it just 
like your Maginot Line example.

                  REPLACEMENT ENGINE FOR RD-1801/SPACE

    Senator Shelby. Secretary Work, Congress has directed the 
Department of Defense to transition from the use of the 
Russian-made RD-180 rocket engines without introducing a 
schedule or a cost risk to our critical national security space 
programs, which we rely on.
    Is the Department of Defense on schedule to maintain its 
assured access to space while retiring the engine? In other 
words, how are we coming along in the development of the 
replacement engine, which we all want to do?
    Mr. Work. I do believe we are on schedule, sir. There are a 
lot of different aspects to this.
    Just this week for the first time, SpaceX launched their 
Falcon 9 with the first national security payload and returned 
a booster to the launch site. The Air Force is on track on its 
Launch Services Agreement.
    So I would say broadly, yes, we are on track. And we are 
quite encouraged with the competition that we are seeing in 
this field, and we think it will ultimately result in several 
competitors that provide very low cost access to space.
    Senator Shelby. But we cannot have a gap to occur in our 
reconnaissance and everything in our intelligence gathering, 
can we?
    Mr. Work. No, sir. Absolutely not.

                             LASER WEAPONS

    Senator Shelby. Dr. Walker, I have just a few seconds. You 
can take longer, if you want to, if the chairman will indulge.
    Bring us up to date, where you can in a room like this, an 
open room, where we are as far as the development of laser 
weapons. That has had a great technological promise for a long 
time because a laser is concentrated energy. It looks to me, 
just on the surface that that has a lot of promise.
    Dr. Walker. Yes, Senator Shelby, lasers do have a lot of 
promise. We have been working them for a while. DARPA led the 
effort to move into the solid state laser business several 
years back, about 10 years ago.
    We have since transitioned a solid state laser, a slab-type 
laser to the Air Force and they are still testing it out at 
White Sands Missile Range.
    We have moved now into what is called fiber laser 
technology. The advantage of fiber lasers is they are very 
small fibers with low power levels that go through each fiber, 
but they are easy to combine. So you get higher power levels by 
combining many fibers.
    Senator Shelby. It helps you concentrate.
    Dr. Walker. And you can concentrate the energy much easier.
    And so, we have several prototype tests coming up in 
September. And these, if they prove successful, we will be 
taking them into applications.
    Senator Shelby. So they have a lot of promise, perhaps, 
dealing in space if we ever had a conflict dealing with space.
    Dr. Walker. Lots of applications.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Maine, Ms. Collins.

                           ADVANCED BIOFUELS

    Senator Collins. Thank you very much, Mr. Chairman.
    Secretary Work, welcome. It is always nice to see you.
    Research in advanced biofuels can lead to supply 
diversification and help to insulate the Pentagon's budget from 
oil price shocks. And particularly given the turmoil that we 
are seeing in the Middle East, I have supported the 
Department's previous efforts to expand research in this area, 
which was of particular interest to Secretary Mabus.
    The University of Maine's Wood Biomass Fuel Program is on 
the cutting edge of these alternative fuel technologies. And 
indeed, just last year, the Defense Logistics Agency awarded a 
$3.3 million contract to the University of Maine for research 
on woody biomass being converted to jet fuels.
    I noticed, however, that there was no mention of biofuels 
in any of your statements.
    What is the status of the Department's interest in 
continuing to pursue this research?
    Mr. Work. Senator, fuel diversity is very, very important, 
but I am going to have to take that for the record and go back, 
and see exactly. I am thinking more of fiscal year 2018 now and 
where we are headed, as you say.
    For Secretary Mabus, this was a very, very high priority 
and I just do not have the information for you right now to 
tell you. But I will take it for the record and get back.
    [The information follows:]

    Overall, the Department is focused on making sure our combat forces 
have the energy they need to conduct operations around the globe. In 
doing so, we are agnostic about the specific feedstock or pathway used 
to produce the liquid fuel used in our ships, aircraft, and tactical 
vehicles, as long as that fuel meets military specifications. As long 
as an alternative fuel, including the biofuel you describe, is cost-
competitive with petroleum and drop-in compatible with existing 
equipment, the Department will procure and use such a fuel in worldwide 
operations. To address your specific question on research, the Services 
are focusing on testing new fuel pathways for compatibility and 
performance with military infrastructure and platforms. Certifying the 
use of additional alternative fuels enables us to expand and diversify 
our supply chain, and helps the Department maintain interoperability 
with ally nations and the commercial sector, both of which are 
incorporating alternative fuels into their supply chains. Finally, the 
Department is executing a Defense Production Act Title III project to 
construct three integrated biofuel production enterprises, each capable 
of producing more than 10 million gallons of military specification 
fuel annually from a variety of feedstocks. Funded in fiscal year 2012-
2013, the Department is monitoring the progress of this effort and will 
update the Congress as events merit.

                               COMPOSITES

    Senator Collins. Thank you.
    Dr. Roper, several of my colleagues have mentioned the 
importance of composites and they brought up great examples in 
their States. But the best example, of course, is in the State 
of Maine.
    The University of Maine has been working with the 
Department of Defense for years on the development of advanced 
materials and composite structures that can be used in a wide 
variety of applications, including ballistics, protections for 
soldiers serving in combat zones, lightweight building material 
for specialized military ships and vehicles, and rapidly 
deployable bridges. In fact, they have developed what they call 
the Bridge-in-a-Backpack so that it is that mobile.
    And just to cite one of the many success stories. A 5-year 
R&D effort with Army Natick Center led to the development, and 
the adoption, of the Modular Ballistic Protection System, which 
provides lightweight and rapid protection for soldiers in 
expeditionary base camps without the need for heavy sandbags or 
concrete structures to accompany them.
    A lead program engineer at the Natick Center noted that 
this technology, which has been developed by the Army and the 
University of Maine, has also been leveraged to protect 
embassies and consulates around the world. So this research has 
led to benefits that go even beyond the Department of Defense.
    The Fiscal 2017 Omnibus Appropriations bill--which, God 
willing, we will be sending to the President to be signed this 
week and all of us can give high-five's on that-- includes 
additional funds for the DOD and the Army from the previous 
Administration's request.
    Could you describe for us how these funds will be used to 
support research on unique composite structures for ballistics 
protection like those developed in Maine? Or Secretary Work, or 
whomever it is appropriately directed to.
    Dr. Roper. Senator, I will speak to our efforts in SCO.
    And you are very right to highlight that composites, and 
more generally the area of material physics, are just a rapidly 
changing, expanding area. It is great that our universities and 
research centers are among the leading innovators and 
researchers in this field.
    We are using advanced materials like composites to try to 
take legacy systems, try to make them lighter, or more lethal, 
or integrate something on them that they could not have carried 
in the past because it would be too heavy or too bulky.
    Expect to continue seeing work like that from SCO.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from New Mexico, Senator Udall.

                              DIUX OFFICES

    Senator Udall. Thank you, Chairman Cochran.
    And very much appreciate the panel being here today.
    Secretary Work, you have stated recently, and I quote here, 
``The commercial sector is not being driven by U.S. Government 
labs. It includes big data, advanced computing, 
miniaturization, robotics, AI, and nanotechnology among others. 
And all these things are being driven by the commercial sector. 
The Department of Defense, realizing this reality, has set up 
the Third Offset Program and the DIUx program in particular to 
leverage the commercial sector to ensure that the United States 
maintains a technologic and strategic edge.''
    And in fact, DIUx managing partner, Raj Shah, recently 
announced that DIUx has signed 25 contracts worth $48 million. 
He is having a hard time keeping up. I have called for the 
expansion of DIUx offices to help tap talent in other locales.
    What are your plans to meet the demand for DIUx contracts? 
And is the Department of Defense looking at expanding offices 
and relationships with our National Labs?
    Mr. Work. Sir, there is a balance.
    The Department of Defense spends $82.5 billion in the R&D 
space, $12.7 billion in just SMP. So as we like to say, we 
spend more on R&D than Facebook, Google, and Amazon combined. 
So we are driving a lot of different things.
    But the dual technologies that you referred to, Senator, 
all of those are really being driven by the commercial sector 
because they can be used in a wide variety of business 
applications.
    So DIUx was an experiment and we are very, very pleased 
with the outcome and the more money that we can convince 
Congress to be able to put in this to allow us to exploit the 
better.
    Right now, quite frankly, sir, not all four of the 
committees are as equally supportive of the DIUx concept. We 
hope in fiscal year 2018, we will be able to convince all four 
of the committees on just how righteous it is.
    You are right. Raj Shah right now is working very closely 
with SCO and we want to exploit these commercial technologies 
to the greatest extent possible.
    Dr. Roper. The people that work in SCO are really 
strategists. They are engineers. They are trying to build new 
ways to fight and win a war that are surprising.
    So when we have an idea, of course we want to find the very 
best companies to work with us. And so, it makes sense for us 
to partner with an organization like DIUx that may know 
companies that would not be on our radar screen, but may be the 
right fit for us in a new war fighting concept that we have in 
mind.
    Senator Udall. Great.
    Mr. Work. And I should, for the record, state that this 
committee has always supported the DIUx, and we very much 
appreciate the support this committee has lent.

                  REDUCTIONS IMPACT ON STRATEGIC EDGE

    Senator Udall. Thank you very much.
    And this is for the whole panel. As you know, basic science 
is essential for the United States' ability to continue its 
strategic position in the world. This is not only true for 
armaments, but also how we protect our troops from disease and 
malnutrition.
    For example, Walter Reed was a pioneer in vector-borne 
diseases like malaria and how to prevent troops from acquiring 
them, saving many soldiers' lives.
    How will your work be impacted if there are cuts to 
education, basic science, and medical programs such as NIH and 
CDC? Will we risk losing our strategic edge in the future?
    Dr. Walker. I can take this one, sir.
    DARPA relies on basic science in all tech areas. But we 
rely on ideas that come out of the basic science world. One of 
the things that I think DARPA does better than just about 
anybody is to take those ideas, those scientific ideas, and 
turn them into technology and then capability.
    And so, if you do not have the ideas to start with, it is 
hard to do the latter. So we support basic science funding.
    In the biomedical field, the biology field in particular, 
DARPA has lots of programs that are trying to do that, 
especially to fight the next epidemic. And some unique vaccines 
called RNA vaccines that I am happy to come back to you later 
and describe.
    Senator Udall. Great.
    Dr. Walker. The idea there is to stop an epidemic in its 
tracks, to have a vaccine for the next epidemic in 60 days is 
our goal.
    Senator Udall. Great. Thank you, for your very good work at 
DARPA, and I look forward to continuing the visit.
    Thank you, Chairman Cochran.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Alaska, Ms. Murkowski.

                                 ARCTIC

    Senator Murkowski. Thank you, Mr. Chairman. One of these 
days, you are just going to introduce me as that Senator that 
always talks about the Arctic.
    [Laughter.]
    Senator Murkowski. And I will not disappoint this morning 
as I direct my questions. I will probably start with you, Mr. 
Work, and then if others on the panel feel that they want to 
chime in, I would ask them to do so.
    We have, as a subcommittee for several years, been looking 
at the defense gaps in the Arctic and what investments we need 
to make to address the gap. In fact, we directed DOD to report 
annually on how the budget aligns with the Arctic defense 
strategy for our Nation. And if anything, the strategic impetus 
to address the gaps is really growing more urgent.
    Yesterday, General Scaparrotti was before the MilCon 
subcommittee and he said, ``Our concern is that rather than the 
Arctic being a place that is for commerce, is stable, with 
freedom of maneuver in accordance with international laws that 
are adhered to, that they,'' meaning the Russians, ``could 
position themselves in a place to control the Arctic and that 
sea lane.'' So again, just speaking to the imperative in front 
of us.
    So the question is, again, where do you see the most 
critical gaps when we are looking at defense infrastructure in 
the Arctic? And what are we doing to address it, even more 
importantly?
    Dr. Walker. Sure, Senator. I can address that.
    One of the things DARPA has done--we had a program that 
ended in 2015--but one of the things we have done is looked at 
how we would develop sensors to surveil above the ice and below 
the ice. It is a program that actually started in 2015 and is 
ending this year.
    But one of the things we just did March 10, I believe, we 
had an Arctic demo day where we brought people in and showed 
them what is coming out of the program.
    We have a new Program Manager coming who is very interested 
in underwater acoustics and surveillance. And so, she is going 
to be looking at the program, and what has come out of it, and 
making her determination about how it moves forward.
    Senator Murkowski. Mr. Work.
    Mr. Work. At the broad, strategic level, Senator, we have 
not done a national defense strategy review since 2014 and the 
Arctic was not, quite frankly, central.
    We are just about ready to start a new national defense 
strategy effort under the direction of Secretary Mattis. And so 
that, I think, will inform the Department's position on how we 
would address Arctic infrastructure.
    I know DHS and the U.S. Coast Guard are very, very keenly 
focused on this, but I think the strategy will tell us how much 
we should put into infrastructure and what emphasis it would be 
in our defense priorities.
    Senator Murkowski. Well, and we would certainly encourage 
that in making sure we are adhering to a strategy that is 
thoughtful, and considered, and really very long term because 
since I have been raising these issues as part of the 
Appropriations Committee, much has changed in the Arctic; not 
only in the U.S. Arctic, but in the Arctic as a whole.
    I spend a lot of my time talking about icebreakers here and 
the need for them to complete any high latitude mission. But we 
all know that infrastructure is more than just the icebreaker.
    I want to cite an article that was in ``Marine Corps 
Times'' recently and it reported on the Marines that are 
training in Norway, I guess, currently. We are going to have an 
opportunity to go visit them in a few weeks. But they found 
that their standard issue FILBE backpack frames were cracking 
and breaking due to the cold environment.
    And the article framed the issue. They said, ``The failure 
of the hard plastic calls into question preparedness for Arctic 
operations against Russia and China.''
    Well, there was a little bit of a discussion with Senator 
Collins about the composites and all the great innovations. But 
if we cannot keep the backpack frames from cracking in the 
cold, we have some problems here.
    So recognizing that we, of course, want to talk about big 
infrastructure, but we also need to recognize that when it 
comes to defense capabilities, it is making sure that we have 
just the day to day tools that will allow our men and women 
that will be engaged in any of these Arctic exercises or 
otherwise to be prepared.
    So I do not know from a DARPA perspective if you have any 
updates on that, but it is a consideration.
    Dr. Walker. I do not, from DAPRA's perspective, I do not 
know this for a fact, but I am guessing Marine Corps 
Warfighting Lab is the place to work that problem.
    Senator Murkowski. Mr. Work.
    Mr. Work. As you know, Senator, in the Cold War, we used to 
send Marines up to Norway quite often in large formations, much 
larger than the 300 Marines that we have there now.
    And our going back there is now giving us more muscle 
memory. It is saying, ``You have forgotten about this and you 
are going to have to pay attention.''
    And I agree with Steve Walker, the Marine Corps Warfighting 
Lab is the first place that would look at the requirements for 
U.S. Marine units that would go north, and that would then 
start to percolate through the requirement system.
    So I do not have anything specific for you now, but getting 
back to Norway and being able to train in those conditions is 
going to inform us and say, ``We need to pay more addition to 
personal gear.''
    Senator Murkowski. When, as I commented to General 
Scaparrotti yesterday, there was a short two minute clip on NBC 
Nightly News on Sunday that highlighted very clearly what 
Russia is doing with their training in the high north. And it 
certainly makes me feel that we are not as prepared as we would 
like to be.
    Thank you for the additional time, Mr. Chairman.
    Senator Cochran. Thank you very much, Senator.
    Senator Schatz, I think you are next.

                            PACIFIC COMMAND

    Senator Schatz. Thank you, Mr. Chairman.
    Dr. Roper, I wanted to talk to you about SCO and its 
relationship with the Pacific Command.
    Can you walk me through an example of a successful project 
where SCO worked with PACOM to address an urgent need, 
developed and demonstrated a solution, and then transitioned it 
into the military services?
    Dr. Roper. I am happy to do that, Senator.
    One of the very first projects that we did with U.S. 
Pacific Command was trying to address a gap in ship-to-ship 
weapons. And so, the Commander of USPACOM needed something very 
quickly and we looked at options to build a new weapon. We were 
not pleased with the amount of time that it would take.
    And so instead of giving up, we went back to the existing 
inventory of systems that we have and we stumbled upon Standard 
Missile-6, which is a missile defense interceptor that defends 
ships.
    So after doing a lot of engineering and analysis, we 
convinced ourselves that it would be able to be reprogrammed to 
do an anti-ship role. And working with U.S. Pacific Command, we 
developed an operational concept. We partnered with the Navy to 
demonstrate it. It is now a transition program that is fielded. 
That was done in about 3 years from start to finish.

                         HAWAII SMALL BUSINESS

    Senator Schatz. Tell me about your relationship with Hawaii 
small businesses.
    There are a lot of Hawaii-based companies that do work with 
PACOM to address urgent needs, but they get caught up in 
cumbersome bureaucratic processes. And certainly, an 
acquisition system and a procurement system are necessary to 
prevent corruption and to have continuity in programs and 
acquisitions.
    But I am wondering whether we would benefit from expanding 
SCO's model of doing business? How are you working with local 
small businesses either in PACOM AOR or elsewhere?
    Dr. Roper. Senator, we have quite a few programs that 
leverage small businesses and it is very similar to the 
approach that DARPA uses with a Broad Agency Announcement and 
the ability to award contracts outside of the Federal 
Acquisition Regulations.
    One of the things that make small businesses especially 
potent for us is that we rarely need them to build a complete 
system end-to-end if they are an expert in a technology like 
composites.
    One example, for an Air Force program, is we have a small 
business that developed a technology to use cameras so that a 
weapon can navigate without GPS. So they are the lead on that 
program for us with Boeing subbing to them. So a really good 
win for that small business. They did not have to be the expert 
in the weapon; Boeing is. But they are the expert in the 
navigation.
    And so when you are repurposing systems or modifying them, 
small businesses can play a much more powerful role and we are 
trying to expand the amount of programs that they are 
participating in.

                    TRANSITION TO PROGRAM OF RECORD

    Senator Schatz. So if I understand this correctly, it is 
sort of like an incubator program and at some point, where 
appropriate, you want to make a transition into becoming a 
program of record.
    And so the question I have are there either specific rules 
that are impediments to becoming a program of record? Are there 
institutional biases? Is there inertia?
    What can we do to make sure that transition occurs?
    Dr. Roper. Senator, keep encouraging prototyping. The thing 
I have learned in four and a half years is that when you have 
proved out a new technology that is not the same as proving it 
as a program of record in the minds of the Services.
    Services who are our partners on all SCO initiatives really 
need to see an operational demonstration before they want to 
take it and create a program of record. And they are wise to do 
that because until you have seen it demonstrated operationally, 
how do you know that there is not some kind of bug under the 
hood that is going to end up driving costs, schedule, and 
performance?
    So when we are able to prototype and demonstrate one of our 
advanced concepts, every single time the Services have taken 
them from us.
    So I really do believe it is the natural bridge from the 
world of science and technology into new programs. And it will 
keep us from getting stuck with lemons in our programs of 
record. You want your failures to occur in prototyping. And so, 
that is what we do.

                    PROTOTYPING TO PROGRAM OF RECORD

    Senator Schatz. I understand what the word ``prototyping'' 
means, but I am not sure I exactly understand what it means in 
this context.
    What do you mean by prototyping? Give me an example of that 
in the last minute when you are working with a company to get 
prototyping going so that one of the Service branches can 
transition into a program of record?
    Dr. Roper. Let us use that advanced navigation idea, so 
using cameras to let a weapon like a Small Diameter Bomb 
navigate without using GPS. So it removes that vulnerability 
from that weapon and the inventory we have. Of course the Air 
Force would want that, but they need to see it demonstrated 
end-to-end.
    And so what we spend funding to do is actually put a camera 
on a weapon, go to a live fly test, hit targets with it, and 
give the data to the Air Force and say, ``On these tests, these 
were the missed distances we achieved.'' And when we have been 
able to do that and have success, our Service partners have 
taken them.
    So it is that old adage of fly before you buy. We need to 
do a lot more flying.
    Senator Schatz. Thank you.
    Senator Cochran. The Senator's time has expired.
    The distinguished Senator from Kansas, Senator Moran.
    Senator Moran. Chairman, thank you very much. Thank you, 
sir.

                            FAA TECHNOLOGIES

    And gentlemen, thank you for your presence today.
    I want to raise a couple of things that are going on in our 
State at home in Kansas, and determine if there are 
opportunities for us to be of help to you in your research, and 
the technologies necessary to defend our Nation.
    First of all, I want to highlight. There is an alliance 
through the Federal Aviation Administration related to--and I 
will probably direct this to Dr. Roper. There is an alliance 
that is created through the FAA in regard to Unmanned Aerial 
Vehicles, and that alliance is called the Alliance for System 
Safety of UAS through Research Excellence, ASSURE.
    It is a group of universities: Kansas State University, 
Mississippi State, University of Alabama at Huntsville, 
University of Alaska at Fairbanks, and Montana State to name a 
few.
    Their efforts are directed at testing related to standards, 
the requirements, Government and commercial operations for 
unmanned systems in our airspace. In fact, the research at the 
University of Alabama at Huntsville was highlighted in 
headlines yesterday regarding safety hazards if a UAS should 
lose connection with the pilot.
    My question, Dr. Roper, is there research that is already 
being conducted, authorized, and approved by the Federal 
Aviation Administration that could or would be of value to you? 
And what do we do if the answer to that question is yes? Do you 
have access to that kind of information of the consequences of 
that research? And if not, how do we make that happen?
    Dr. Roper. Senator, we are not currently working with the 
FAA, but your point is well-taken. We probably should be.
    Any technologies that are being developed or pursued, 
whether they are in academia or industry, that is going to help 
keep Unmanned Aerial Vehicles either safe or de-conflicted 
would obviously have application to defense.
    One of the things that we really bring to the table as the 
Department of Defense are testing facilities that can be used 
to do cutting edge drone research. So when I go do a swarm of 
micro-drones, I do not have to worry about getting airspace 
cleared because we have lots of testing facilities that we own.
    I think we could think about exploring partnerships to make 
those available for companies that are trying to push the 
envelope, but do not have a place to do it.

                              UNIVERSITIES

    Senator Moran. You are highlighting that issue.
    I would highlight the fact that, at least in our State, 
Kansas State University Polytechnic in Salina, Kansas is 
associated and adjacent to Great Plains Training Center, which 
is tens of thousands of acres of airspace currently being used 
by the FAA for UAV research.
    There is a Memorandum of Agreement between the active 
military and the Guard for that space, and it is one of the 
assets that, I think, are overlooked. And so already there is 
an opportunity to tie military and civilian research together 
in airspace that is available to the military.
    The other topic I would raise, and probably again with you 
Dr. Roper, is Wichita State University is another one of those 
universities. They have immense capabilities for engineering 
and research capabilities under their umbrella of the National 
Institute of Aviation Research.
    They have supported the Services as well as industry 
partnership in work dealing with the B-52, the F-18, KC-135 
tankers, but also Unmanned Aerial systems including the 
Predator, Global Hawk, Reaper, et cetera. The part I wanted to 
raise is they are involved in cyber and communications 
technologies to mitigate security risks.
    Again, would you utilize additional authority granted with 
additional methods or mechanisms to work directly with 
universities that are doing research? Would that be something 
that would help DOD fulfill its responsibilities in this arena?
    Dr. Roper. Senator, the fact that Wichita State is driving 
a lot of technologies is not a shock to me, and I do mean the 
pun in this case.
    Senator Moran. You are good.
    Dr. Roper. I think in order to have universities and small 
companies be able to work better with us, I think continuing to 
have more options like BAA's and other transactional 
authorities. So that we are not working through the very 
difficult to manage FAR process is going to be important to 
continue exploring and expanding where prudent.
    I think the burden of proof to get in the game is low. It 
is usually a short abstract that can be followed by an award. I 
view that as the right mechanism to work with small institutes 
that are pushing the envelope, but are not used to working 
under a big Federal Government contract.
    Senator Moran. I appreciate your answer and particularly 
your sense of humor with the pun.
    I would say that I am certainly interested in both those 
institutions that I mentioned in my question as being 
facilities and universities in Kansas, but the array is wide.
    My view is that there is a great opportunity for 
efficiencies and cost savings that could occur in research if 
we can further develop the relationship between those 
institutions and the Department of Defense.
    Does that make sense?
    Dr. Roper. It does, sir. I think for us where universities 
are participating in programs, it is back to the earlier 
comment.
    Prototyping is a great place to get them involved. They are 
probably not going to produce units in quantity for us, but if 
they can burn down the risk on a high impact but risky concept 
before we ask an industry partner to build it, then at least we 
know we are buying competence. We are going to buy something 
that is very likely to work.
    So prototyping is a big key for me. I say it almost every 
time I talk publicly. It is a way for us to go fast in 
acquisition without necessarily taking on risk that we cannot 
get rid of in an expedient and prudent way. So if your 
prototype fails, you cut your loses, and move on. You are not 
stuck with a program of record.
    Senator Moran. If I pursue this further--and I intend to--
you would be an ally and somebody that we can deal with to 
accomplish that outcome?
    Dr. Roper. Sir, I am for anything that allows us to move 
faster in acquisition. I am fully onboard.
    Senator Moran. Thank you very much.
    Thank you, Mr. Chairman.

                             REORGANIZATION

    Senator Cochran. Thank you, Senator.
    Secretary Work, the 2017 National Defense Authorization Act 
directed the Department to restructure the Undersecretary for 
Acquisition Technology and Logistics position into two separate 
positions.
    How will this reorganization affect the Department's 
ability to transition technology from laboratories to warfare?
    Mr. Work. Mr. Chairman, we just briefed Secretary Mattis on 
our initial plan to make the split that you have described.
    He has given us permission now to come forward. We will 
start to interact with Congress in both chambers and we will 
tell them what we are thinking.
    At the broadest level, the Undersecretary of Defense for 
Research and Engineering is supposed to focus exactly on what 
Will Roper has talked about. He is supposed to be the Chief 
Technology Officer of the Department to look across the entire 
portfolio, and make sure that we have a coherent SMT program, 
and really focus a lot on rapid prototyping.
    We are going to start engaging with the Congress here 
within the next 10 days in saying on how we intend to do this.
    We are excited about it. We believe that we are supposed to 
have it done by the February 1 next year, and we hope to 
actually do it faster than that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you very much.
    And thanks to everyone who participated in our hearing 
today.
    We also want Senators to know they can submit additional 
written questions for the witnesses, and we would request you 
to respond to them in a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Robert O. Work
             Question Submitted by Senator Susan M. Collins
    Question. Research in advanced biofuels can lead to supply 
diversification and help insulate the Pentagon's budget from oil price 
shocks. The University of Maine's woody biomass fuel program is on the 
cutting edge of these alternative fuel technologies. Can you discuss 
what biofuels the Department is currently working to develop, 
particularly cellulosic biofuels like wood?
    Answer. Overall, the Department is focused on making sure our 
combat forces have the energy they need to conduct operations around 
the globe. In doing so, we are agnostic about the specific feedstock or 
pathway used to produce the liquid fuel used in our ships, aircraft, 
and tactical vehicles, as long as that fuel meets the appropriate 
specifications. As long as an alternative fuel, including biofuel 
produced from cellulosic feedstocks such as wood, is cost-competitive 
with petroleum and drop-in compatible with existing equipment, the 
Department is willing and able to procure and use such a fuel in 
worldwide operations. To address your specific question on research, 
the Services continue to test and evaluate new fuel pathways for 
compatibility and performance with military infrastructure and 
platforms. Woody biomass is considered an acceptable feedstock for fuel 
production pathways already qualified by the DoD (e.g., gasification 
followed by Fischer-Tropsch synthesis) as well as for pathways under 
consideration by DoD (e.g., alcohol-to-jet). Qualifying additional 
alternative fuels enables us to expand and diversify our supply chain, 
and helps the Department maintain interoperability with ally nations 
and the commercial sector, both of which are incorporating alternative 
fuels into their supply chains. Finally, the Department is executing a 
Defense Production Act Title III project to construct three integrated 
biofuel production enterprises, each capable of producing more than 10 
million gallons of military specification fuel annually from a variety 
of feedstocks. One of these awards was made to a company (Red Rock 
Biofuels) that plans to use woody biomass as its primary feedstock in 
the production of diesel and jet fuel. Funded in fiscal year 2012-2013, 
the Department is monitoring the progress of this effort and will 
update the Congress as events merit.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. UC Berkeley and Stanford are part of a university 
consortium that participates in the National Security Technology 
Accelerator (MD5) program. MD5 aspires to create an innovation corps in 
conjunction with research universities compromised of innovators, 
entrepreneurs and companies that commercialize technology relevant to 
Department of Defense. This corps is created through a number of 
activities conducted in coordination with universities, including:--
Hacking 4 Defense, which teams DoD agencies with university students to 
develop solutions to some of America's most complex technological 
problems critical to our national security; and--MD5 Hack, a nationwide 
series of ``hackathon'' events, which provide a venue for civilian-
military technology collaboration and commercialization. Dr. Work, the 
fiscal year 2017 Department of Defense Appropriations Act includes $25 
million for the MD5 program. In light of the substantial funding 
Congress appropriated for the MD5 program in fiscal year 2017 and in 
previous years, what value do you believe the MD5 program brings to 
defense innovation?
    Answer. MD5 is a critical component of DoD's effort to capitalize 
on entrepreneur (and intrapreneur) led innovation. The value that MD5 
represents to DoD is twofold. First, MD5 aligns networks of innovators 
inside and outside of DoD to rapidly solve critical national security 
challenges through the collaborative development of dual-use products 
and startup businesses that can be sustained by the commercial 
marketplace. Second, MD5 promotes innovation and creative problem 
solving as a core competence in the DoD workforce. In the short time 
that MD5 has been in existence, it has deployed a national university 
program called Hacking for Defense, which engages university students 
in real-world national security problem-solving, led ``crowdsourcing'' 
campaigns to prototype solutions for military logistics challenges, and 
developed online resources to connect military and civilian innovators.
    Question. Dr. Work, funding to sustain the MD5 program was not 
included in the president's fiscal year 2017 budget request. Does the 
Pentagon intend to request funding for MD5 in the Administration's 
fiscal year 2018 budget request? If not, why not?
    Answer. The Department felt that it was important to evaluate the 
performance of the MD5 program prior to making a long-term commitment 
to include the effort in the President's budget request.
                                 ______
                                 
                Question Submitted by Senator Jack Reed
    Question. I know that one of the major challenges we face is the 
ability to maintain modern R&D infrastructure and equipment at the 
Defense labs. I go to the laboratories, not just NUWC, and they really 
need MILCON dollars because a lot of the facilities are aging. I assume 
this is because labs are not viewed as a high priority when the 
Services are spending their limited MILCON budgets.--What can we do to 
make sure that we are devoting adequate resources to maintain and 
modernize R&D facilities and equipment? (When asked about this during 
the hearing, Secretary Work said: So, generally readiness is always at 
the top as well as production of systems. And unfortunately facilities 
have suffered without question. We really applaud the administration 
saying we need to add more money to defense. And one of the first 
places you'll see in F.Y. 18 when we drop the budget we are putting 
more money into facilities. I don't--I will take this for the record. 
And get back to you on whether there are any particular labs. But we 
are looking at this hard. And we understand the problem Senator.)
    Answer. In the President's Budget for fiscal year 2018, the 
Department committed approximately $38 million for an Electronics 
Science and Technology Laboratory for the Naval Research Laboratory 
(NRL). The MILCON dollars will allow NRL to renovate the Electronics 
Science and Technology Laboratory to restore its functionality while 
providing modern and reliable facilities for the execution of 
electronics science and technology research. In addition, the Air Force 
Research Laboratory was authorized $75 million in fiscal year 2017 
MILCON for an Advanced Munitions Technology Complex to support research 
and development of sub-scale high speed munitions requiring advanced 
energetics containing nano and conventional materials.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. Do you believe that the United States will be able to 
maintain a technological edge compared to near peer competitors with 
regard to hyspersonics? How do partnerships --or as the national 
security labs call it ``work for others'' help DoD push the limit in 
technological innovation? What are the next steps for the hypersonic 
program?
    Answer. Peer nations have demonstrated, in flight, hypersonic 
system capabilities that pose serious threats to U.S. national security 
and that rival U.S. capabilities in terms of both technical performance 
and system maturity. Those peer nations have extensive and robustly 
funded national initiatives to develop hypersonic technology, to 
conduct flight demonstration programs and to field operational systems. 
Those peer nations have also demonstrated a long-term commitment to 
this technical area in order to develop and field weapons systems to 
control and dominate the near space domain; i.e., flight at altitudes 
of 100-400 kilofeet. Partnerships with the national security 
laboratories--in particular, Sandia National Lab and Lawrence Livermore 
National Lab--have helped DoD pursue technical innovation associated 
with both medium- and intermediate-range hypersonic boost glide 
technology for the DARPA/AF Tactical Boost Glide (TBG) and Office of 
the Under Secretary for Acquisition, Technology and Logistics 
Conventional Prompt Strike (CPS) programs. This has been accomplished 
by exploiting the extensive and deep technical competence in those 
laboratories in the technical areas of relevance to hypersonic flight: 
aerodynamics, aerothermodynamics, fluid mechanics, materials, 
structures, guidance, navigation, control, sensing, flight testing, 
rocket propulsion, and ordnance. The laboratories have provided 
critical technical assistance in design, analysis, and testing to DoD 
hypersonic technology, demonstration, and prototype programs. However, 
the dramatic pace at which peer nations are outpacing U.S. efforts to 
develop advanced hypersonic systems, the highly orchestrated manner in 
which peer nations are developing hypersonic technology and systems as 
a means to dominate the near space domain poses a serious threat to 
U.S. capability to project power in the western Pacific and European 
theaters. The eroding position of the United States in hypersonic 
technology and system development relative to the pace of change among 
our peer adversaries demands serious attention. Specifically, the DoD 
believes that a national initiative in this field is required to re-
establish U.S. technical leadership in hypersonic technology and 
systems for defensive and offensive applications. Such an initiative 
must drive transformative changes to, and a rejuvenation of, education, 
infrastructure, policy, workforce, technology development, acquisition, 
and manufacturing to enable the United States to develop and field 
defensive and offensive systems to operate in and through the near 
space domain and to enable the United States to dominate this domain in 
future conflicts.
    Question. You mentioned that Artificial Intelligence and machine 
learning are two of the capabilities DoD is seeking to employ. How does 
DoD envision using this technology, and how will DoD ensure that human 
beings are ultimately in charge of the decision to employ deadly force?
    Answer. The primary use of machine learning/artificial intelligence 
(ML/AI) technologies within DoD is to support the core mission to deter 
war and to protect national security, and includes use in robotic and 
autonomous system capabilities as well as in logistical and decision 
support systems. ML/AI could be used to increase situational awareness, 
lighten the warfighter's physical and cognitive workloads, increase the 
throughput and efficiency of sustainment, and enhance survivability. 
Uses of ML/AI have the potential to enhance the ability of commanders 
to make accurate decisions during military operations, including 
decisions about the employment of deadly force. DoD Directive 3000.09 
(``Autonomy in Weapon Systems'') establishes policy and assigns 
responsibilities for the development and use of DoD weapons with 
autonomous and semi-autonomous functions.
                                 ______
                                 
            Question Submitted to Dr. William B. Roper, Jr.
                Question Submitted by Senator Tom Udall
    Question. In the next 5 to 10 years, what are your predictions for 
the proliferation of over-the-counter-drones in the battlefield? And 
how do we aim to neutralize this new asymmetric threat? How can AFRL's 
directed energy directorate support this effort and how would DoD 
utilizing new funding for R&D of directed energy capabilities?
    Answer. The proliferation of commercial (small) drones has become a 
challenge in theater and a high priority topic throughout the past 
year. Current projections of the commercial marketplace demonstrate 
that the sales of drones will continue to increase, especially given 
the push for commercial use of drones (e.g., Amazon drone deliveries in 
CONUS). In addition, drones continue to become more capable. Given 
their increasing capabilities, multi-modal mitigation approaches are 
currently being explored, because of their robustness to 
countermeasures. For example, commercial drones can be reprogrammed 
fairly simply to adjust for frequency jamming, thus we cannot rely on 
radio-frequency based mitigation approaches alone. Directed Energy is 
another modality and offers rapid engagement speeds and deeper 
magazines. DoD has S&T programs in Directed Energy Weapons in the three 
Services, DARPA, and MDA. For example, the Directed Energy Directorate 
at AFRL develops mitigation techniques for atmospheric effects, such as 
turbulence, to deposit more laser energy on target, at increased 
distances.
                                 ______
                                 
              Questions Submitted to Dr. Steven H. Walker
             Question Submitted by Senator Susan M. Collins
    Question. Research in advanced biofuels can lead to supply 
diversification and help insulate the Pentagon's budget from oil price 
shocks. The University of Maine's woody biomass fuel program is on the 
cutting edge of these alternative fuel technologies. Can you discuss 
what biofuels the Department is currently working to develop, 
particularly cellulosic biofuels like wood?
    Answer. DARPA is not currently making investments in biofuels. 
Prior investments demonstrated that both cellulosic and algae derived 
fuels could meet or exceed DoD fuel specifications. Continued research 
into scaling these technologies and reducing their production and 
processing costs are necessary to reach their full potential.
                                 ______
                                 
                Question Submitted by Senator Tom Udall
    Question. DARPA has pushed the limits of technology for many years. 
One goal area DARPA recently attempted to tackle was to achieve 
hypersonic flight. I understand DARPA did not meet that goal but Sandia 
National Labs has been able to achieve it. Can you tell me how your 
work helped advanced hypersonics, and how Sandia and DARPA are learning 
from each other on this program?
    Answer. The DARPA Falcon HTV-2 program conducted two flight tests 
of the HTV-2 hypersonic glide vehicle in 2010 and 2011. Each of those 
tests experienced anomalies during hypersonic flight leading to 
commanded flight termination. The flight anomalies took place at 
hypersonic speeds and were due to phenomena that could not be modeled 
or properly simulated in ground testing at the time. Each flight 
anomaly occurred about one-third of the way into the planned mission. 
The first HTV-2 flight test led to new understanding regarding the 
aerodynamics and control of high performance hypersonic lifting 
vehicles. This has changed the way we now design, analyze, and test 
this new class of hypersonic system. The second flight anomaly led to 
new understanding of the behavior of advanced refractory composite 
aeroshell structures under the severe thermal and mechanical loading 
environments of hypersonic flight. This understanding has changed the 
way we design, manufacture, analyze, and test this pioneering class of 
hot thermal protection structure. These flight anomalies and the 
resulting investigation work provided major advances in our 
understanding of the design, manufacturing, and testing of advanced, 
high performance boost glide vehicles. Those lessons are now being 
integrated into current hypersonic vehicle development and 
demonstration efforts. The Falcon HTV-2 program involved Sandia 
National Laboratory engineers and leadership throughout the HTV-2 
vehicle design, development, flight testing, post-flight investigation, 
and the remediation efforts following each flight test. This included 
having Sandia subject matter experts on several HTV-2 integrated 
product teams throughout the vehicle development and testing and having 
a senior Sandia representative on the flight investigation and 
remediation oversight boards. These were some of the same Sandia 
engineers working on the Sandia vehicle design. Consequently, those 
engineers had extensive insight into the DARPA vehicle design, 
analysis, ground and flight testing, post flight lessons, and 
remediation work. Similarly, the HTV-2 Deputy program manager was 
provided significant insight into the Sandia vehicle development and 
flight test activity. This included serving as an independent review 
team member overseeing the redesign of the Sandia vehicle following the 
successful flight test referenced in the question. It should be noted 
that the successful Sandia flight was actually the fourth flight of the 
Sandia Winged Energetic Reentry Vehicle (SWERVE) concept. There were 
three SWERVE flight tests conducted in the late 1970--early 1980 
timeframe. The first two test flights experienced flight anomalies. The 
third flight, which covered a relatively short range, was fully 
successful. The most recent flight, in 2010, conducted under the Army 
Advanced Hypersonic Weapon project, tested the same vehicle 
configuration with a new heat shield to support a much longer flight 
range and was also successful. Sandia and DARPA continue to work 
together on hypersonic efforts. Sandia engineers currently support 
DARPA hypersonic projects providing expertise in experimental and 
computational aerodynamics and aerothermodynamics, guidance navigation 
and control, flight performance, rocket motor development and 
integration, flight testing, and range safety. Consequently, Sandia and 
DARPA continue to learn from one another in this critical area of 
national defense.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense subcommittee will reconvene on 
Wednesday, May 24, 2017 at 10:30 a.m. in the morning. We will 
receive testimony from the Department of the Navy.
    Until then, this subcommittee stands in recess. Thank you.
    [Whereupon, at 11:46 a.m., Wednesday, May 3, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, May 24.]
</pre></body></html>
